<html>
<title> - PUTIN'S INVASION OF UKRAINE AND THE PROPAGANDA THAT THREATENS EUROPE</title>
<body><pre>[Senate Hearing 114-820]
[From the U.S. Government Publishing Office]


                                                   S. Hrg. 114-820

  PUTIN'S INVASION OF UKRAINE AND THE PROPAGANDA THAT THREATENS EUROPE

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON EUROPE AND REGIONAL
                          SECURITY COOPERATION

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 3, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: https://www.govinfo.gov

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-995 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------



                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                 Lester Munson, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                         ------------          

              SUBCOMMITTEE ON EUROPE AND REGIONAL        
                      SECURITY COOPERATION        

                RON JOHNSON, Wisconsin, Chairman        

RAND PAUL, Kentucky                  JEANNE SHAHEEN, New Hampshire
JAMES E. RISCH, Idaho                CHRISTOPHER MURPHY, Connecticut
CORY GARDNER, Colorado               TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts

                              (ii)        

  
                          C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Ron Johnson, U.S. Senator From Wisconsin....................     1
Hon. Jeanne Shaheen, U.S. Senator From New Hampshire.............     2
    Prepared Statement...........................................     2
Benjamin G. Ziff, Deputy Assistant Secretary of State, Bureau of 
  European and Eurasian Affairs, U.S. Department of State, 
  Washington, DC.................................................     3
    Prepared Statement...........................................     5
Leon Aron, Resident Scholar and Director of Russian Studies, 
  American
  Enterprise Institute, Washington, DC...........................    14
    Prepared Statement...........................................    16
Peter Pomerantsev, Senior Fellow, Transitions Forum, Legatum 
  Institute, London, United Kingdom..............................    19
    Prepared Statement...........................................    21
Maksymilian Czuperski, Special Assistant to the President and 
  CEO, the Atlantic Council, Washington, DC......................    23
    Prepared Statement...........................................    24
Heather Conley, Senior Vice President for Europe, Eurasia, and 
  the Arctic, and Director, Europe Program, Center for Strategic 
  and International
  Studies, Washington, DC........................................    28
    Prepared Statement...........................................    30

                                 (iii)

  

 
  PUTIN'S INVASION OF UKRAINE AND THE PROPAGANDA THAT THREATENS EUROPE

                              ----------                              


                       TUESDAY, NOVEMBER 3, 2015

                           U.S. Senate,    
        Subcommittee on Europe and Regional
                              Security Cooperation,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:47 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Ron Johnson 
(chairman of the subcommittee) presiding.
    Present: Senators Johnson, Gardner, Shaheen, and Murphy.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. This hearing will come to order.
    I will not talk about our prehearing banter.
    First of all, I want to welcome all of our witnesses here. 
I want to thank you for your thoughtful testimony and your 
taking the time to appear before this committee.
    The hearing title is ``Putin's Invasion of Ukraine and the 
Propaganda that Threatens Europe.'' I took my first trip into 
eastern Europe a couple of months after I was sworn in, in 
2011, and we visited Georgia, Ukraine, and the Baltic States. I 
have been back there a number of times since then. The 
conditions literally have not changed, from the standpoint of 
the pressure that Russia is applying to those fledgling 
democracies, people that are trying to shed themselves of the 
legacy of corruption, people who are trying to improve their 
lives through democratic process and freedom. And, of course, 
Vladimir Putin, that apparently threatens him. And so, it is 
been instructive as we have taken those trips, particularly 
with colleagues, how effective Vladimir Putin's disinformation 
and propaganda really has been.
    My sense is, I have not been--I am, you know, new to the 
Senate in 2011. I traveled the world in my business. So, I have 
not been involved in things like Radio Free Europe and Voice of 
America, and understanding exactly how those broadcasting 
outlets were really functioning, or not functioning. But, my 
sense is, they obviously played a key role during the cold war; 
but, once the Berlin Wall fell, it seems like we declared 
victory and stopped our efforts. Based on testimony, it sounds 
like we were starting to ramp those things up again, but, from 
my standpoint, we cannot ramp them up fast enough. We have got 
to push back on what is, like I said, very effective, on--the 
standpoint of Vladimir Putin. We have the truth on our side, 
and we need to convey that truth.
    So, again, I certainly want to thank the witnesses for your 
thoughtful testimony.
    And, with that, I will turn it over to Senator Shaheen for 
opening comments.

           OPENING STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Well, thank you, Mr. Chairman.
    I have a statement that I will enter for the record, but 
let me just point out that I have been to Europe several times 
over the last 4 or 5 months, and--both eastern Europe, Ukraine, 
and the Baltics. And one of the things that I heard everywhere 
I went was the impact of Russian propaganda in those countries. 
And I think it is important for us not to lose sight of the 
ways that the Kremlin has been able to use its state-owned 
media to harass journalists, for disinformation, and to create 
space for Putin's recklessness abroad.
    I think it is important for us to look at ways that we can 
leverage opportunities offered by new media technologies, by 
the insight and assistance of our European allies to create 
opportunities for Russians, for Ukrainians, and for all of 
those people who have been within eastern Europe to access 
accurate information and make their own informed decisions.
    I had the opportunity, earlier this year, to present an 
Atlantic Council Freedom Award posthumously to Boris Nemtsov. 
As we all know, he had been tireless in promoting freedom and 
openness in Russia. And I remember--I presented the award to 
his daughter, and I think she very aptly summarized the threat 
posed by Russian propaganda. She said, ``Russian propaganda 
kills. It not only kills reason and common sense, it literally 
kills.'' And that, I think, was a very important statement for 
us to remember today at this hearing and as we look, going 
forward, at how to combat that propaganda.
    So, again, I look forward to the discussion today, and very 
much appreciate all of those people who will be testifying.
    Thank you.
    [The prepared statement of Senator Shaheen follows:]

 Prepared Statement of Jeanne Shaheen, U.S. Senator From New Hampshire

    Thank you to our witnesses for agreeing to testify today, and to 
you, Senator Johnson, for working with me to call this important 
hearing.
    I recently returned from a trip to Europe that included a stop in 
Kiev. There, officials described to me how important Russian 
information warfare is to President Putin's strategy in Ukraine. Their 
comments echoed concerns I've heard from others in Central and Eastern 
Europe. Clearly, Russian propaganda has become a strategic export, 
designed to promote the agenda of Vladimir Putin abroad, undermining 
democracy and free markets and to maintain Russian influence in what it 
considers to be its sphere of influence. Our partners in Europe, in 
particular those with Russian-speaking populations, are rightfully 
concerned that Ukraine was just one victim of Russia's hybrid warfare, 
and are looking to the United States to assist them in countering 
disinformation emanating from the Kremlin.
    Even as we focus here on the outward effects of Russian propaganda, 
we should not lose sight of the ways the Kremlin uses its control of 
state-owned media, harassment of journalists and disinformation to 
deceive the Russian population and create political space for Putin's 
recklessness abroad.
    The U.S. Government is not new to promoting truth and transparency 
overseas, but I worry that more than 25 years after the fall of the 
Berlin Wall, we have gotten rusty. These times require a renewed effort 
that takes full advantage of the resources at our disposal. We must 
leverage the opportunities offered by new media technologies and the 
insight and assistance of our European allies to create opportunities 
for Russians, Ukrainians, and all people to access accurate information 
and then to make their own informed decisions.
    Earlier this year, I had the honor of presenting an Atlantic 
Council Freedom Award posthumously to Boris Nemtsov for his tireless 
efforts to promote freedom and openness in Russia. Nemtsov had vocally 
opposed Russian involvement in Ukraine, and was, at the time of his 
murder, working on a report to highlight the human toll on Russian 
soldiers. His award was accepted by his daughter Zhanna, who aptly 
summarized the threat posed by Russian propaganda. She said: ``Russian 
propaganda kills . . . it not only kills reason and common sense, it 
literally kills.''
    I'm looking forward to today's discussion, and to hearing from both 
the administration and distinguished experts from academia and the 
media on how the U.S. can best help our allies confront Russian 
propaganda.

    Senator Johnson. Thank you, Senator Shaheen.
    Our first witness is Deputy Assistant Secretary of State, 
Mr. Benjamin Ziff. As I said, he is the Deputy Assistant 
Secretary of State for the Bureau of European and Eurasian 
Affairs. In this capacity, he is responsible for relations with 
the Baltic and Nordic countries and manages the European Public 
Diplomacy Portfolio. He joined the Foreign Service in 1988 and 
has worked in public diplomacy positions in Australia, Israel, 
Panama, and Peru.
    Secretary Ziff.

 STATEMENT OF BENJAMIN G. ZIFF, DEPUTY ASSISTANT SECRETARY OF 
STATE, BUREAU OF EUROPEAN AND EURASIAN AFFAIRS, U.S. DEPARTMENT 
                    OF STATE, WASHINGTON, DC

    Mr. Ziff. Well, thank you, Chairman Johnson, Ranking Member 
Shaheen, members of this committee, for the opportunity to join 
you today, and for this--your personal investment so many of 
you have made in our shared vision of Europe whole, free, and 
at peace. Your bipartisan support, your visits to Ukraine, the 
assistance you and your fellow Senators have provided are truly 
making a difference in the region.
    We have all heard the popular Kremlin refrains asserting 
that there are no Russian soldiers in Ukraine, that Ukraine is 
on the verge of collapse, or that Americans, and not corrupt 
leaders, are the cause of domestic discontent overseas. The 
Kremlin sponsors this misinformation with a sophisticated $1.4-
billion-a-year propaganda apparatus, at home and abroad, which 
claims to reach 600 million people across 130 countries in 30 
languages. In the face of the Kremlin's attack on the truth, 
the free flow of reliable, credible information is our best 
defense.
    In my remarks today, I will describe how we use our public 
diplomacy tools and foreign assistance to amplify fact-based 
messages, support credible independent voices, and improve 
access to diverse sources of information.
    In the fiscal year 2015, the State Department and USAID 
allocated $66 million in U.S. foreign assistance funding to 
sustain civil society and independent media in Eurasia and 
southeast Europe, of which more than 60 million supports 
independent media. In addition, we have also dedicated $4 
million from the public diplomacy budget to bolster our staff 
and our programming. These funds help partners who are 
susceptible to Russian aggression build democratic principles, 
independent media, and a civil society intolerant of 
corruption.
    In fiscal year 2016, President Obama is requesting a 26-
percent increase to the State Department and USAID for an 
assistance budget in this sector, proposing $83 million to 
surge our support for civil society and independent media in 
countries most vulnerable to Russian pressure. This increase is 
needed in countries that continue to be under threat, not just 
in Russian-speaking areas, but also in the western Balkans, as 
well. Our public diplomacy and foreign assistance resources 
create programming focused on delivering our messages and 
supporting local democratic voices throughout the region. Our 
efforts in Russia, in the Russophone world, and in Western 
Europe, help audiences identify objective reporting over the 
Kremlin's noise, and 90 percent of all Russian-language news, 
entertainment, and sports in the world are produced in Moscow 
and controlled by the Kremlin.
    We at the State Department employ a combination of short-
term, rapid-response messaging with medium- and long-term 
programs to boost resilience and build capacity to recognize 
and reject Kremlin propaganda. A few days after the shoot-down 
of the MH17 airliner in July of last year, Embassy Moscow 
plugged into the State Department's network of 130 Russian-
language specialists and released hourly messages and content 
from journalists on the ground that helped negate Russian 
conspiracy theories.
    Rapid response is certainly crucial. However, the best 
defense against Kremlin propaganda gaining traction is a 
proactive approach that strengthens allies as they fight 
propaganda on the front lines. The United States is not alone 
in dealing with Russian disinformation, as you well know. We 
are joining forces with our partners in Europe. Through a group 
of message experts from like-minded countries, a 20-plus 
network of government and international--multilateral 
organizations known as the Friends of Ukraine, we regularly 
consult on messaging campaigns, media trends, and Kremlin 
propaganda tactics. Longer term, local independent voices and a 
strong independent media are the real answer to free and 
democratic societies throughout the region.
    The exchange and training programs we sponsor link and 
educate regional and transatlantic journalists and other 
opinion leaders. We recognize that, despite Moscow's 
significant investment in disinformation, its efforts have 
limited effectiveness abroad. A Pew Research poll published in 
August indicates that a median of only 30 percent of those 
polled outside Russia see Russia favorably. President Putin, 
himself, is viewed even less favorably, with only 24 percent of 
respondents having confidence that President Putin will do the 
right thing in world affairs.
    Mr. Chairman, Senator Shaheen, members of this committee, 
America's investment in public diplomacy is about more than 
countering a single country. It is about protecting the rules-
based system across Europe and around the world. It is about 
saying no to borders changed by force, to big countries 
intimidating their neighbors and demanding a sphere of 
influence.
    I thank the subcommittee for its bipartisan support and 
commitment to public diplomacy and to a Europe whole, free, and 
at peace. And I welcome your questions.
    Thank you very much.
    [The prepared statement of Mr. Ziff follows:]

     Prepared Statement of Deputy Assistant Secretary Benjamin Ziff

    Thank you Chairman Johnson, Ranking Member Shaheen, members of this 
committee for the opportunity to join you and for the personal 
investment so many of you have made in our shared vision of a Europe 
whole, free, and at peace. Your bipartisan support, your visits to 
Ukraine, the assistance you and your fellow Senators have provided are 
truly making a difference in the region.
    We have all heard popular Kremlin refrains asserting there are no 
Russian soldiers in Ukraine; that Ukraine is on the verge of collapse; 
or Americans, and not corrupt leaders, are the cause of domestic 
discontent overseas.
    While many of these claims can easily be refuted, their around-the-
clock dissemination attempts to sow doubt, confusion, and suspicion and 
question even the most basic truths.
    The Kremlin sponsors these efforts with a sophisticated $1.4-
billion-a-year propaganda apparatus at home and abroad, which claims to 
reach 600 million people across 130 countries in 30 languages. The 
Russian Government also funds think tanks and outside organizations in 
its neighboring states to help achieve its goals of promoting the 
Kremlin's false narratives; portraying the West as a threat; and 
undermining trust in independent media as well as Western institutions 
and values.
    In the face of the Kremlin's attack on the truth, the free flow of 
reliable, credible information is the best defense. This is why the 
State Department has focused its efforts on supporting independent 
media; improving access to high quality, objective information; 
exposing false narratives; and building the capacity of civil society. 
After all, truth should be discovered, not dictated.
    Strong independent journalism is a key element in any democracy and 
will eventually prevail over disinformation and propaganda.
    In my remarks today, I will expand upon these areas and describe 
how we use our public diplomacy tools and foreign assistance to amplify 
fact-based messages and support credible, independent voices and to 
improve access to credible information. Finally, I will focus on our 
diplomatic and security engagements that reinforce the positive story 
our allies and partners in Europe tell about our transatlantic 
relationship and commitments.
    In FY 2015, the State Department and USAID allocated $66 million in 
U.S. foreign assistance funding to sustain civil society and 
independent media in the Eurasia and Southeast Europe region, of which 
more than $16 million supports independent media. In addition to our 
foreign assistance funds, we have also dedicated $4 million from the 
public diplomacy budget to bolster our staff and programming. These 
funds help our partners who are susceptible to Russian aggression build 
democratic principles, independent media, and a civil society 
intolerant of corruption.
    In FY 2016, President Obama is requesting a 26-percent increase to 
the State Department and USAID foreign assistance budget in this 
sector, proposing $83 million to surge our support for civil society 
and independent media in countries most vulnerable to Russian pressure.
    This increase is needed in countries that continue to be under 
threat of democratic backsliding, especially where the Kremlin's 
influence is strong and growing--not just in Russian-speaking areas, 
but also in the western Balkans. Increasingly, reports indicate that 
Bosnia and Herzegovina, Serbia, Macedonia and Montenegro, are targets 
of Russian pressure and disinformation. This is not new, but 
susceptibility is increasing.
    We are putting our current public diplomacy and foreign assistance 
resources to good use, mainly toward programming focused on delivering 
our messages and supporting local, democratic voices throughout the 
region.
                              the audience
    In Western and Central Europe, we work with our European partners 
to underscore allied unity and bolster resolve to work together on 
global challenges. We also offer Western journalists opportunities to 
view the realities on the ground in countries, like Ukraine, where the 
Kremlin tries to distort the facts.
    For Russian-speaking audiences, especially in Eastern Europe and 
Eurasia, we offer information and programming alternatives while 
bolstering the capacity of civil society and independent journalists to 
identify and tackle disinformation. This population is particularly 
vulnerable to disinformation since Russian is the 10th most-spoken 
language in the world--the 5th most when counted as a second language--
and since 90 percent of all Russian language news, entertainment, and 
sports in the world are produced in Moscow and controlled by the 
Kremlin.
    Inside Russia, we work with media--traditional and social--to reach 
the public and maintain a dialogue with the Russian people through 
programs that accurately describe U.S. policy, society, and values. 
Embassy Moscow is at the forefront of this engagement and has increased 
its nongovernmental exchanges budget by $2 million, and its English 
language programming by $400,000.
    Yet, our work to connect with ordinary Russian citizens continues 
to be hampered by the Kremlin. All 29 American Corners in Russia were 
closed down over the last 2 years, and the Library of Foreign 
Literature ended our long-standing (22-year) partnership last month, 
closing the American Center there.
    The outcry from ordinary Russians angry about losing this cultural 
tie with America was immediate and loud. Thanks to them and the efforts 
of our Embassy team, we relaunched a new American Center on Embassy 
grounds, and had a huge turnout at its first public event. Our hope is 
that we can continue to provide an undistorted view of American 
literature, culture, entertainment, and values to those who seek it in 
Moscow.
                          near term: messaging
    On a daily basis, our efforts help audiences identify objective 
reporting over the Kremlin's noise.
    To do this, we employ a combination of short-term messaging 
strategies with medium- and long-term programs to boost resilience and 
build capacity to recognize and reject Russian propaganda. The State 
Department has implemented a rapid response system to support our 
overseas posts in times of heightened Kremlin propaganda. Armed with 
the facts, our embassies are able to adapt the content and materials we 
supply to their own audiences and amplify the truth rapidly.
    For example, a few days after the shoot down of the MH17 airliner 
in July of last year, Embassy Moscow plugged into the State 
Department's network of 130+ Russian language officers and released 
hourly messages and content from journalists on the ground to help 
negate the rampant obfuscation and conspiracy theories being blared by 
the Russian news media.
    Similarly, in September 2015, after photoshopped images alleging 
U.S. Ambassador Tefft's presence at a Russian opposition rally were 
released, Embassy Moscow responded by producing a photo collage of the 
same picture of the ambassador altered to show him at various events--
including landing on the moon. The Embassy's success in discrediting 
the risible attempt at propaganda went viral, reaching over 1 million 
Russians, and forcing the Russian news outlet that shopped the image to 
withdraw its own story.
    This kind of ``rapid response'' counter messaging, while 
necessarily reactive, is crucial to defend against the manipulation of 
truth. But the best defense against Russian propaganda gaining traction 
is proactive. It is designed to instill strength and independence in 
local communities and allies fighting propaganda on the front lines and 
it encourages higher standards of journalism.
    For Ukraine, we are constantly reviewing our policies and needs 
through a department-wide working group organized by Deputy Secretary 
Blinken. Under Secretary Stengel and I cochair this group, which meets 
weekly to maintain a focus on Ukraine's successes in the face of overt 
Kremlin aggression and messaging distortion. Through this consultative 
process, we update our Embassies daily on current policy priorities, 
messages, and programs, and all State elements work to communicate our 
policy and support for Ukraine as one voice.
    To reach the broader Russian-speaking population, the Department 
spokesperson's office last week launched a Russian-language version of 
its Twitter feed. Now, our official statements reach audiences in the 
region directly, without having to be interpreted by third parties. 
Along these lines, we are also engaging directly with independent media 
within Russia. State has placed interviews of more than a dozen 
Assistant Secretaries, Special Envoys, and other senior officials in 
such outlets this fiscal year.
                  partnering with others on messaging
    The U.S. is not alone in dealing with Russian disinformation. To 
correct untruths not only in Ukraine and Russia, but across Russian-
speaking communities, we are joining forces with our partners in the EU 
to identify, analyze, and debunk Russian disinformation where and when 
we find it; highlight Ukraine's progress in building its democracy, 
fighting corruption, and advancing reform; bolster the Russian-speaking 
areas of Europe seeking to resist disinformation; and fortify 
transatlantic unity through institutions like NATO and the EU.
    Through a group of messaging experts from like-minded countries--
known as the ``Friends of Ukraine''--we regularly consult on messaging 
campaigns, media trends, and Kremlin propaganda tactics. Friends of 
Ukraine (FoU) is a growing 20+ member network of governments and 
multilateral organizations committed to responding to disinformation in 
real time through multiple voices. Efforts by the FoU have helped to 
keep Ukraine on the front burner, even when the Kremlin's media machine 
has tried to distract its audiences with other topics.
    NATO also is active in this area through its Strategic 
Communications Center of Excellence in Riga, Latvia. The newly opened 
center designs programs to advance StratCom doctrine development and 
standardization, conducts research and experimentation to find 
practical solutions to existing challenges, identifies lessons from 
StratCom operations, as well as enhances training and education efforts 
and interoperability throughout the alliance.
    And, our partners at The European External Action Service (EEAS), 
the EU's diplomatic corps, have started a new Strategic Communications 
unit, which directs public diplomacy messaging and programs throughout 
the Eastern Partnership countries. I visited Brussels recently and met 
with the leadership of this new unit, and was impressed by their team 
and the content and campaigns they are developing. We are committed to 
helping one another share content and distribute information through EU 
and U.S. channels, and this spring I hope to bring the State Department 
and EU teams together to enhance this much-needed collaboration.
                      long term: building capacity
    While rapid response counter-messaging is a critical element of our 
strategy, local independent voices and a strong independent media are 
the real answer to free and democratic societies throughout the region. 
State Department and USAID programs support free media in the region to 
provide open, objective, accessible information to all. Exchange and 
assistance programs provide critical tools and increase access to a 
variety of local news sources, high-quality fact-based content, and 
honest investigative journalism.
    We are proud of the exchange programs and ``tech camps'' we sponsor 
to link and train regional and transatlantic journalists and other 
opinion leaders. By November, we will have trained 120 ``Tech Camp'' 
alumni--60 in Prague and Riga and 60 more in Kiev--who will go on to 
support strong independent journalism by sharing best practices and 
resources.
    We are also working with the EU to cooperate on supporting the 
creation of new regional programs to support Russian-language media, 
based on the European Endowment for Democracy's (EED) Feasibility Study 
on Russian Language Media Initiatives.
    Altogether, in FY15, the State Department and USAID allocated 
approximately $16 million to support independent media. Already, we 
have success stories that we are proud of including:

  <bullet> Launching a year-long investigative journalism training and 
        exchange program for up to 75 journalists from the Baltics.
  <bullet> The Regional Investigative Journalism Network, supported by 
        USAID and DRL, which connects local investigative journalists 
        throughout the region and helps them investigate and report on 
        cases of corruption and misuse of government authority.
  <bullet> And, the 5-year Ukraine Media (U-Media) Project, which 
        promotes the development of a free, vibrant, and professional 
        media sector in Ukraine and also serves as a watchdog in the 
        public interest. The U-Media program has adapted to the 
        changing context in Ukraine by promoting balanced political 
        coverage across Ukraine through local content production, 
        exchange visits, public discussions, and webcasts with special 
        attention to the South and East. Local media partners also 
        monitor and publicize intimidation and attacks on civic 
        activists and journalists and government interference in 
        independent media coverage of Ukrainian politics.

    While training and exchanges are critical to our efforts, 
information is also impeded by the lack of communications 
infrastructure in many areas tied to Kremlin-sponsored programming.
    To help build capacity, the Broadcasting Board of Governors' (BBG) 
new Russian-language news program, Current Time, is on air in nine 
countries via 25 major market commercial, satellite, and public media 
outlets.
    Nearly 2 million viewers in Russia are watching Current Time online 
weekly, and BBG's digital media engagement has grown by an average of 
2.5 million Russian-speakers per week.
    A popular BBG program, ``Footage v. Footage,'' is devoted to 
pointing out inconsistencies in Russian reporting and debunking myths.
    BBG has also helped to bring about a contract with PBS Distribution 
for nearly 400 hours of Russian-language public media content to 
Ukraine, Lithuania and Estonia.
    These stations will air these programs for Russian language 
speaking audiences starting in November of this year.
    In late August, BBG also donated its recently developed ``Fly Away 
FM System,'' which is suitable for use as low power FM transmitters.
    While BBG's contributions, our exchanges, and public diplomacy 
programming are vital to our strategy against Kremlin disinformation, 
we must continue to ensure our commitments and support to our allies so 
that we continue to have a positive story to tell.
                       resilience for the future
    Ultimately, countering disinformation is a security issue, 
especially when the goal of Russian disinformation and propaganda is to 
destabilize, distract, and divide our allies.
    Addressing this problem is an important part of our diplomatic 
effort to promote a Europe whole, free, and at peace.
    The Baltic States are primary targets of Russian disinformation, 
especially since all three--Latvia, Lithuania, and Estonia--are valued 
NATO allies. Just as we are cooperating with them to counter Russian 
disinformation, we work together in the realm of collective defense.
    The combination of our diplomatic efforts ensures that the U.S. not 
only has a positive story to tell, but that others will be able to hear 
it over the Kremlin's noise.
    Despite Moscow's significant investment in disinformation, its 
efforts have limited effectiveness abroad. A Pew research poll 
published in August indicates that a median of only 30 percent of those 
polled outside of Russia see Russia favorably. Putin himself is viewed 
even less favorably, with only 24 percent of respondents having 
confidence that Putin will do the right thing in world affairs.
    Here in the United States, we have not seen evidence that the 
Kremlin's misinformation has gained any traction: A recent Pew poll 
indicated 75 percent of Americans have no confidence in Putin to do the 
right thing in world affairs.
    This reveals that even while Europe, and in particular Ukraine, 
works through tough challenges and fights disinformation, our work 
together continues to speak more loudly than Russia's meddling.
    Mr. Chairman, Senator Shaheen, members of this committee, America's 
investment in public diplomacy is about more than fighting a single 
country.
    It is about protecting the rules-based system across Europe and 
around the world. It is about saying no to borders changed by force, to 
big countries intimidating their neighbors or demanding a sphere of 
influence.
    I thank this subcommittee for its bipartisan support and commitment 
to public diplomacy and to a Europe whole, free, and at peace.
    I look forward to your questions.

    Senator Johnson. Thank you, Secretary Ziff.
    Can you talk to me about, you know, what our efforts--you 
know, how they are divided between the new media, social media, 
and, you know, traditional broadcast outlets, the effectiveness 
of radio versus TV versus those, and how are we allocating 
those resources?
    Mr. Ziff. Certainly, Senator.
    We are working across all media spectra in the State 
Department. We focus--we have 63 embassies and consulates in 
the--in Europe and Eurasia with teams of people who are devoted 
to messaging and to countering propaganda and to putting 
America's messages out there. These people work with 
traditional media. They all have Web sites and Twitter feeds, 
as well, and they all sort of deal with opinion leaders and 
deal with the media on the ground there.
    From the State Department, the Broadcasting Board of 
Governors has increased its Russia-language programming by over 
100 percent. Its streaming online TV reaches 2.5 million people 
a week. And our Twitter feeds from the State Department are 
also very popular and very engaged.
    We kind of divide the efforts up between Washington, as the 
supplier of the meta message to our posts abroad, and each of 
these posts is able to adjust and use the material we provide 
in ways that best address their local audiences.
    Senator Johnson. Give me some assessment, though, in terms 
of the effectiveness between broadcast and--I mean, your--in 
other words, your assessment, the State Department's, in terms 
of pushing it out through the Internet----
    Mr. Ziff. Sure.
    Senator Johnson [continuing]. Again, into the eastern 
European countries, but then also the effectiveness, and how do 
we reach citizens inside Russia?
    Mr. Ziff. Sure. TV is the 800-pound gorilla in this area. 
Certainly in Russia, the Kremlin controls about 90 percent of 
the TV programming there. So, within Russia, TV is the way that 
the Kremlin gets its message out. Overseas, it is much less 
effective. We are seeing that Russian television is not doing 
anywhere near as well overseas as it does within Russia. 
Online, we are focusing a lot on online, because even the 
people who may not like us all have, sort of, iPhones, and so 
we are focusing a great deal on Twitter and on streaming media 
as a way to reach the audiences throughout western Europe, the 
border countries, as well as Russia. Russia is a harder 
environment to work in, but, obviously, in western Europe and 
the border countries, it is a much more welcoming environment 
for our efforts.
    Senator Johnson. How do we push information to Russia, 
though? I mean, is it radio? Are we completely blocked by TV? 
Are we completely blocked on the Internet?
    Mr. Ziff. No, sir. As I mentioned, the Broadcasting Board 
of Governors does reach Russia through its streaming TV 
programs. Our Embassy in Moscow also reaches people through its 
Twitter feed and has electronic engagement. And I believe that 
the radio programming coming out of the border countries also 
reaches Europe, as well--Russia, as well.
    Senator Johnson. Can you talk about--within those border 
countries, you know, to what extent, or what percentage, has 
Russia invested--and those individuals aligned with Russia 
invested in those broadcast outlets and totally control them?
    Mr. Ziff. I do not have those figures for you right now, 
Senator. I will be happy to try and get them for you.
    Mr. Ziff. I know that audiences in some of the border 
countries, the Russian-speaking audiences, do tune in to 
Russian TV; though, for example, Estonia just recently began 
its own Estonian national Russian-language television station, 
which is apparently doing very well. And I know other countries 
are looking very closely at how they address the needs of 
Russian-speaking audiences within their own borders.
    Senator Johnson. In your testimony, you talked about rapid 
response, and you used the downing of the airliner as one 
example. Can you cite other examples----
    Mr. Ziff. Sure.
    Senator Johnson [continuing]. And just also talk about--How 
do we counter, specifically, other than just rapid response--I 
mean, is our broadcasting--is it organized enough where we are 
specifically addressing and countering specific pieces of 
propaganda? Now just an instance like that, but, I mean, the 
specific pieces of propaganda that Russia is pushing.
    Mr. Ziff. I would say that it depends on the situation, 
Senator, because, while, as I said, we do emphasize rapid 
response, we think that the whack-a-mole approach to every lie 
and every exaggeration is counterproductive, because it is 
reactive and you are always behind the curve. The way to really 
fight this and look at this is a medium- and long-term 
challenge where we strengthen the local abilities, local 
journalists, local civil society, that they can identify this 
problem in Russian propaganda from the outset.
    Another example of rapid response, you asked for, a Russian 
outlet tweeted a photoshopped photograph of our Ambassador in 
Russia at a--to--his presence, purportedly, at a opposition 
rally, when, in fact, he was nowhere near there, and, within 2 
hours, our Embassy in Moscow had photoshopped our Ambassador on 
the Moon, at an ice hockey rink, and doing other ridiculous 
things, which highlighted that this was pure propaganda, and 
did not work. This tweet was retweeted extensively within 
Russia. So, that is another example of--a tactical example of 
how we would fight back against a particular message.
    Senator Johnson. Okay.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    How are we coordinating with our European allies to combat 
Russian propaganda? I understand that there is a center in 
Brussels that the EU is operating out of. There is a NATO 
center in Riga. There is a variety of nongovernmental 
organizations and media outlets, like Deutsche Welle who are 
also working on this issue. So, can you talk about how 
coordination occurs between all of these entities? Or does it?
    Mr. Ziff. I sure can, Senator. Thank you very much.
    I am just back, 10 days ago, from Brussels, where I met 
with our colleagues in the European External Action Service. 
They have got a large team in Brussels which is doing pretty 
much what we are doing here. We coordinate weekly with them. We 
have secure video teleconferences with them. We talk to them 
frequently. We share products, as well, with them. The--our 
embassies are also, sort of, our lead coordinators, across the 
board, with their local interlocutors. Obviously, the border 
countries are the most aware of this threat and are most 
organized to combat it. Fact, the--we just had a--the European 
Endowment for Democracy just had a conference in Warsaw in 
September to discuss, sort of, ways that the continent itself 
can work to strengthen civil society and journalistic abilities 
to be able to fight this problem.
    Senator Shaheen. And to what extent are we working with 
dissidents inside Russia who are also trying to get correct 
information out to Russians, people like Boris Nemtsov?
    Mr. Ziff. Well, I would like to discuss in a--sort of 
offline, if I could.
    Senator Shaheen. Okay.
    Mr. Ziff. That would be, I think, a more useful 
conversation.
    Senator Shaheen. So, can you talk a little bit about the 
impact that we are seeing of the Russian propaganda on European 
politics? I have been watching some of the recent elections, 
and seen the gains that nationalist parties are having. To what 
extent do we think those are being fed by Russian propaganda?
    Mr. Ziff. Well, I believe that you can look at Europe right 
now, and the challenges that they are facing are--with 
migration and other things--are a ripe field to be taking 
advantage of. I do not know of any specific, sort of, elements 
that I would want to talk about here, with Russia funding any 
particular elements. But, obviously, even without that, given 
the conditions on the ground, the migrant crisis, and others, 
it is a fertile environment for all kinds of propaganda and all 
kinds of misinformation.
    Senator Shaheen. We have been having a series of hearings 
in the Armed Services Committee talking about military reform 
and the potential for military reform. And one of the things 
that has come up in--for example, that former Secretary of 
Defense Bob Gates said, a couple of weeks ago, when he was 
before the committee--he talked about the fact that we had 
abolished the U.S. Information Agency, back in the late 1990s, 
and we really had not replaced that with other--with a direct 
program, I guess is the best way to put it. So, to what extent 
are we working with--is State working with the Department of 
Defense on some of these issues? And do you see that as a 
priority, as we think about how to respond to Russia and to 
some of the other threats that are coming, certainly from ISIS, 
as the result of their very effective efforts on the Internet?
    Mr. Ziff. Well, you are talking about a topic very near and 
dear to my heart, Senator. My father was a USIA officer, and I 
was a USIA officer before joining the Department of State. And 
I can attest to its qualities and what it did. And I can also 
attest that the incorporation of those qualities into the State 
Department has, in some ways, made us more flexible, more 
adaptable, and brought us closer to policy. So, I--while I 
certainly emotionally lament the departure of USIA, I think the 
State Department has done a very good job in responding to a 
21st century threat, which is broader than the one that was 
presented by the Soviet Union back in the day.
    As far as the Department of Defense, obviously we 
coordinate very closely. We are in constant contact with our 
colleagues in--on the military side. They are--sort of, in the 
European Command--and they are very--they are helping us a 
great deal in a--in producing, sort of, some products and some 
initiatives that allow us to have a sort of whole-of-government 
approach to this problem.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Johnson. Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    And thank you, Mr. Ziff, for your testimony today.
    While the cease-fire in eastern Ukraine is fragile, it does 
appear to be holding, at least at this point. What do you 
believe is--the State Department--what does State Department 
believe that Putin's next step is Ukraine?
    Mr. Ziff. Well, perhaps you should ask Mr. Putin that, Mr. 
Gardner. I think the--the cease-fire is holding, Senator, but 
the--their--our goal is full Minsk implementation. The Minsk 
Accords have to be implemented, and we are not seeing that 
moving forward. The hostages have not been released. The full 
withdrawal of weapons has not been completed. And the full--the 
free access by--of humanitarian assistance has not been 
allowed. So, in those ways, we see that the Kremlin and 
President Putin are not complying with the terms of the Minsk 
agreement.
    Senator Gardner. Is there any sense of escalation or any 
anticipation of escalation?
    Mr. Ziff. I think perhaps the--oh, yeah, thank you--there 
has been--thank you very much--there have been some--an uptick 
in attacks over recent days. We have 17 casualties since 
September 1, and 50 wounded, some mines, some boobytraps. This 
is still a--sort of a blip in the cease-fire; nonetheless, 
something we are following very closely and we are very 
concerned about, because, obviously, violence is the last thing 
we want to see reoccur in that zone.
    Senator Gardner. So, 17 casualties since September 1.
    Mr. Ziff. Yes, sir.
    Senator Gardner. Could you give, sort of, a timeframe from 
when the Minsk was entered into, what that means?
    Mr. Ziff. Well, I think the issue was, when the cease-fire 
began, there was supposed to be a cease-fire. Nonetheless----
    Senator Gardner. Seventeen.
    Mr. Ziff [continuing]. There were--killings continued.
    Senator Gardner. And if fighting renews, what is the U.S. 
strategy?
    Mr. Ziff. Excuse me?
    Senator Gardner. What is the U.S. strategy if fighting 
resumes?
    Mr. Ziff. The U.S. strategy? Let me defer that to my more 
military-inclined colleagues, Senator, because our assistance 
to Ukraine, to this point, has not included lethal aid, but we 
have not ruled out the possibility, if conditions change. We 
are watching closely and seeing what occurs on the ground. Our 
focus right now is on getting Minsk implemented and making sure 
that the Russians and the separatists fulfill their 
commitments.
    Senator Gardner. Surely, State has had conversations, if 
there was a renewal of fighting, with the government. Is that 
correct?
    Mr. Ziff. I do not--I am not aware of any such 
conversations. I would imagine that our Ambassador on the 
ground may have done so.
    Senator Gardner. Okay. And the sanctions against Putin, how 
do you--how effective do you believe they have been? Are there 
things that we could do to strengthen them and make them more 
effective in targeting critical sectors, oil and gas or others?
    Mr. Ziff. Well, I think--we have sanctioned almost 100 
individuals and enterprises on the Russian side in, sort of, 
response to their actions in Ukraine and in Crimea. Those 
sanctions are ongoing. They are having an effect. We are seeing 
an effect, not only by those sanctions, but also the Russian 
countersanctions. It is affecting the Russian economy. We 
believe this is a way to motivate the Russian and sort of, the 
Kremlin and its entourage to change their behavior. In fact, if 
Minsk is not implemented, we are looking to roll over those 
sanctions for another period, come January.
    Senator Gardner. Do you believe that the Russian actions in 
Syria are on a parallel track, or are they, in some ways, a 
attempt for a bargaining chip in Ukraine?
    Mr. Ziff. Well, Senator, luckily, my responsibilities 
encompass Europe and do not extend to the Middle East. And I am 
very grateful for that on a daily basis. And so, I recommend 
that that question be directed to people who are more focused 
on the Middle East.
    Senator Gardner. Okay, but--so, no conversations that you 
have had with anybody regarding a possible--possible use of 
Syria's activities in Ukraine, try to create a bargaining----
    Mr. Ziff. Well, no, we----
    Senator Gardner [continuing]. Position of some kind.
    Mr. Ziff. I have discussed the counterpropaganda aspects of 
that in our response is to the Russian narratives regarding 
Syria, but not specifically to the military options on the 
ground.
    Senator Gardner. Okay. And do you believe--did you 
anticipate further Russian activity to destabilize other Baltic 
allies? I know you spoke to that with Senator Shaheen briefly, 
but would just love to see your response on United States 
commitment to NATO if Russia moves against our NATO allies in 
the Baltics.
    Mr. Ziff. I think, Senator, article 5 is article 5. And our 
commitment to article 5, we have a rotating presence throughout 
the Baltics which demonstrate our resolve. We are cooperating 
extensively on military and, as I said, civil society and 
counterpropaganda efforts. I would imagine that our commitment 
to those countries is crystal clear.
    Senator Gardner. There was a--articles recently--and you 
may or may not be able to answer this question, but there were 
articles recently about Russian activities surrounding our 
transatlantic cable--communications systems. Certainly 
provocative action, if true. Can you highlight any activities 
that may be taking place around some of our communications 
systems?
    Mr. Ziff. Not in this forum, Senator.
    Senator Gardner. Okay, thank you.
    Mr. Chairman.
    Senator Johnson. Secretary Ziff, I would like to give you 
an opportunity just to--if there is anything else you would 
like to convey to the committee before we release you. But, I 
do have one quick question.
    You mentioned that the hostages have not been released. Do 
you have--does the State Department have a number on what those 
hostage levels are?
    Mr. Ziff. Well, we have several prominent hostages, 
Senator. We treat them all the same. We believe they are all 
important, and they all need to be released, whether they are 
prominent or not. Some of them were kidnapped, as you well 
know. The human cost of the Ukrainian conflict is extensive, 
and these are more victims. So, we believe, as part of any 
agreement, this is a--sort of a requirement.
    Senator Gardner. But, do we have a count? I mean, do we--
are we operating with a certain level, here?
    Mr. Ziff. I do not have that number in hand. I am happy to 
get it to you, Senator.
    Senator Johnson. Okay.
    Do you have any further comments before we----
    Mr. Ziff. I would just like to conclude to--by reinforcing 
the fact that our--the State Department's view, this--the work 
against the Kremlin's propaganda is not necessarily a short-
term effort. This is a medium- and long-term effort to make 
sure there is no fertile ground in Europe or Eurasia for the 
kind of efforts that they are doing. And I know that it is 
frustrating, on occasion perhaps, to see the lies and the 
distortions occur. But, the best defense we have is to make 
sure that we have well-trained, able journalists and publics on 
the ground in Europe who can discount those.
    Senator Johnson. Okay.
    Thank you, Secretary Ziff.
    We will seat the next panel, then.
    [Pause.]
    Senator Johnson. Again, I want to thank the witnesses for 
your time and for your testimony.
    We will start, moving from my left to right. First witness 
will be Dr. Leon Aron. Dr. Aron is a resident scholar and the 
director of Russian Studies at the American Enterprise 
Institute. Dr. Aron serves on the Broadcasting Board of 
Governors, which oversees the operations of several 
international broadcasting outlets, including Voice of America 
and Radio Free Europe, Radio Liberty.
    And, I know in your testimony, Dr. Aron, you are testifying 
on your own behalf, not as governor of the Broadcasting Board 
of Governors.
    So, Dr. Aron, please.

   STATEMENT OF LEON ARON, RESIDENT SCHOLAR AND DIRECTOR OF 
 RUSSIAN STUDIES, AMERICAN ENTERPRISE INSTITUTE, WASHINGTON, DC

    Dr. Aron. Thank you very much, Mr. Chairman.
    You have made the disclaimer for me, so more time.
    Mr. Chairman, Ranking Member, members of the committee, the 
aggressive, often sophisticated and Internet-savvy propaganda 
campaign is skillful, it is flexible, it is adapted to the 
geography of the audience. While general patterns are similar, 
and I will discuss them in a moment, the content may differ 
considerably, depending on the ethnicity, political culture, 
and geography of the target audience. Thus, in western and 
United States, the RT television networks aims not so much to 
sell what might be called the Russia brand, but, rather, to 
devalue the notion of democratic transparency and 
accountability, to undermine confidence and objective 
reporting, and to litter the news with half truths and quarter 
truths. ``Question More'' is RT's advertising motto, and it is 
not coincidental, for the Russian propaganda seeks to exploit 
several key conventions and tendencies of Russian media and 
Western audiences. Let me mention a few.
    First, truth is in the eye of the beholder. As a former 
insider observer of the Russian media put it, Russian 
propaganda uses the idea of a plurality of truths to feed 
disinformation, which, in the end, looks to trash the 
information space.
    Two, there are two sides to every story, and the 
credibility of the source is secondary. And therefore, RT fits 
rather smoothly in the panoply of Western media.
    Just to be on the safe side, though, RT, which does not 
broadcast in Russian, never identifies itself as a Russia-based 
and government-funded network.
    Four, RT and the Sputnik News Network, which was launched 
last year, find the soil of the Western media markets already 
fairly lucent and fertilized as far as conspiracy theories are 
concerned. Did the U.S. Government orchestrate 9/11? Why not? 
Twenty-three percent of Germans thought so, as did 15 percent 
of Italian. Seven years after the fall of the Twin Towers, 
between one-fifth and a quarter of Britons, French, and 
Italians told pollsters that they have no idea who was behind 
the attacks. Well, then, after the CEO of France largest oil 
company, Total, who had opposed economic sanctions on Russia, 
was killed when his plane slammed into a snowplow operated by a 
drunken driver at the Moscow Airport, Russian commentators 
asserted that he was killed by the CIA. And why stop there? Did 
the CIA aid Ukrainians in shooting down the MH17 Malaysian 
airliner? That was one of the versions put out. Plausible. Did 
the Russian opposition kill its own leader, Boris Nemtsov to 
embarrass Putin? Possible.
    Yet, for all the seemingly fertile soil of the Russian 
propaganda distortions, the impact of the Russian 
disinformation campaign on the democracies of western and 
central Europe appears paltry. Where the ratings were credibly 
established, RT was barely visible, apart from the presold 
audiences on the extreme left and right. And the main reason is 
the highly competitive media environment that exposes people to 
wide range of facts and interpretations.
    Now, the situation is quite different, grimmer, when we go 
east to the countries collectively known as the former Soviet 
Union. There the effectiveness of Russian propaganda is greatly 
enhanced by two factors. First, the presence of ethnic Russian 
minorities, some of whom nurture grievances, and, second, the 
existence of far fewer alternative sources of credible 
information than in the east and--west and central Europe. It 
is here that what is known as the weaponization of information 
occurs. News and analysis as means of provoking strong negative 
emotions potentially leading to hatred, incitement, and 
ultimately justification of violence.
    In Kiev, earlier this year, one of my most memorable 
meetings was with the dean of the School of Journalism at the 
Kyiv Mohila Academy, Professor Evhen Fedchenko. Together with 
his students, her runs a Web site called StopFake.org, which 
records some of the Russian propaganda masquerading as news. 
Here is just two examples. Russia's most widely watched Pervyi 
Kanal, or First Channel, television network, broadcast an 
interview with a terrified woman identified as a refugee from 
the territory controlled by the Ukrainian government. She said 
she witnessed Ukrainian soldiers publicly executing the wife 
and the son of a pro-Russian separatist. The child was 
crucified on a bulletin board in the center of the city while 
the woman was allegedly dragged behind a tank until she was 
dead. The story was proven to be a complete fake.
    Another example. A popular Russian television channel 
posted on social media sites an invented conversation between a 
Ukrainian military commander and a German doctor in which they 
discuss in detail the harvesting of internal organs, presumably 
of deceased members of the pro-Russian population caught up in 
the fighting. The officer is quoted as saying, ``We would have 
a great deal of material to work with, thanks to our Western 
partners.''
    Fortunately, there is an antidote to this poison. It is 
impossible, of course, to sanitize all of this, but the--
because of the lopsidedness of funding and manpower, but there 
is enough to deflate the effort considerably.
    As usual, the best medicine is a rich, diverse, and 
uncensored democratic media environment, but as such 
environment does not yet fully exist in most post-Soviet 
states, the U.S. international media could be of great help.
    I wonder if I could have 2 more minutes. I am almost done. 
It is an interesting story.
    Despite being barred from the domestic outlets in Russia, 
the online audience for Radio Free Europe, Radio Liberty, and 
Voice of America has been growing in Russia, reaching 4.7 
million this summer. Last year, a Gallup nationwide survey in 
Ukraine showed the site of the VOA audience--the size of--I am 
sorry--VOA audience across all the media platforms in Ukraine 
and in the Russian-language doubling since 2012 to nearly 7 
million adults who use VOA every week. That is 18 percent of 
all adults in Ukraine. In Kiev, I was repeatedly struck by the 
deep appreciation across the board, across the political 
spectrum, both in the media elites and political elites, at the 
fact that the VOA and the Radio Liberty, Radio Free Europe 
content was superior, not just to the Russian propaganda, but 
also to the output of the oligarch-dominated domestic Ukrainian 
television.
    To conclude, Mr. Chairman, we are facing a determined and 
often refined propaganda effort. From the sophisticated 
exploitation of Western media patterns and vocabulary to 
outright lies and crude fakes, the goal remains the same: to 
undermine the people's trust in democratic politics and 
policies and in free and fair media. As this effort is vital to 
the maintenance of the present Russian regime, it may be with 
us for a long time. So, time and talent and task and risktaking 
innovation, and, yes, money, for U.S. international media will 
continue to be needed to counter this effort.
    Thank you very much.
    [The prepared statement of Dr. Aron follows:]

                  Prepared Statement of Dr. Leon Aron

    Thank you Mr. Chairman. First, a disclaimer: the testimony I am 
about to give will be given in my capacity as a private expert and not 
as a Governor of the Broadcasting Board of Governors.
    Mr. Chairman, the ranking member, members of the committee, the 
aggressive, often sophisticated and Internet-savvy propaganda campaign, 
underwritten by the Russian Government to the tune of at least half a 
billion dollars a year, is flexible and skillfully adapted to the 
geography of the audience. While general patterns are similar and I 
will discuss them in a moment, content may differ considerably 
depending on the ethnicity, political culture and geography of the 
intended audience.
    Thus, in Western Europe and the United States, the RT television 
network aims not so much to ``sell'' what might be called the ``Russia 
brand,'' but rather to devalue the notions of democratic transparency 
and accountability, to undermine confidence in objective reporting, and 
to litter the news with half-truths and quarter truths.
    ``Question more!'' is RT's advertising motto--and it is not 
coincidental. For the Russian network seeks to exploit several key 
conventions and tendencies of Western media:

  <bullet> First, truth is in the eye of the beholder. As a keen and 
        formerly inside observer of the Russian media effort put it, 
        Russian propaganda uses ``the idea of a plurality of truths to 
        feed disinformation, which in the end looks to trash the 
        information space.'' \1\
  <bullet> Second, that there are two sides to every story, and the 
        credibility of the source is secondary.

    ``The medium is the message,'' Marshall McLuhan famously proclaimed 
in the 1960s. Half a century later, the message is increasingly 
detached from the medium, and words from those who utter them. After 
all, post-modernism postulates that ``there is no author, there is only 
the text.'' My favorite modern English poet, Robert Graves, started the 
poem, titled ``Forbidden Words,'' with these four lines:

    ``There are some words [that] carry a curse with them:

          Smooth-trodden, abstract, slippery vocables.
          They beckon like a path of stepping stones;
          But lift them up and watch what writhes or scurries!''

    But when showered by these smooth-trodden and slippery vocables, 
how often do Western media bother to lift the stones?

  <bullet> Third: since the credibility of the source is of secondary 
        importance, Russian propaganda finds itself fitting rather 
        smoothly into a panoply of Western media. (Just to be on the 
        safe side, RT, which does not broadcast in Russian, never 
        identifies itself as a Russia-based and government-funded 
        network.)
  <bullet> Fourth: RT and the Sputnik news network, launched last year, 
        find the soil of the Western media markets already fairly 
        loosened and fertilized as far as conspiracy theories are 
        concerned. Did the U.S. Government orchestrate 9/11? Why not? 
        Twenty-three percent of Germans thought so, as did 15 percent 
        of Italians.\2\ Seven years after the fall of the Twin Towers, 
        between a quarter and one-fifth of Britons, French, and 
        Italians told the pollsters they had no idea who was behind the 
        attack.\3\ Well, then, after the CEO of France's largest oil 
        company, Total, who had opposed economic sanctions on Russia, 
        was killed when his plane slammed into a snowplow operated by a 
        drunken driver at a Moscow airport, Russian commentators 
        asserted that he was killed by the CIA.\4\ And why stop there? 
        Did the CIA aid Ukrainians in shooting down the MH 17 Malaysian 
        airliner (one of the ``versions'' suggested by Russian 
        propaganda)? Plausible. Did the Russian opposition kill its own 
        leader, Boris Nemtsov, to embarrass Putin? Possible.
  <bullet> Fifth: With all the so-called value judgments to be taken 
        out of the reporting, there are no more ``just'' wars or wars 
        of ``aggression''--only ``conflicts.'' Just as there are no 
        ``victims'' and ``perpetrators,'' only ``violence.'' So when RT 
        and Sputnik editors read or see or hear news in the leading 
        Western media about ``renewed violence'' in the ``conflict'' 
        between Ukraine and Russia, they find it easy to build up on 
        and extrapolate from them to twist the truth. Especially, when 
        almost one in three Germans was reported last summer to find 
        Russia not responsible for the violence in Ukraine, that's 
        another opening for RT to exploit.

    Yet for all this seemingly fertile soil for Russia's distortions, 
the impact of the Russian disinformation campaign on the democracies of 
Western and Central Europe appears paltry, if not to say negligible. 
Where the ratings were credibly established, RT was barely visible, 
apart from the ``pre-sold'' audiences on the extreme left and right.\5\ 
The main reason is a highly competitive media environment that exposes 
people to a wide range of facts and interpretations.
    The situation is quite different when we go east, to the countries 
collectively known as the Former Soviet Union. There the effectiveness 
of Russian propaganda is greatly enhanced by two factors. First, the 
presence of ethnic Russian minorities, some of whom nurture grievances; 
and, second, the existence of far fewer alternative sources of credible 
information than in West-Central Europe.
    It is here that what is known as the ``weaponization of 
information'' occurs: news and analysis as a means of provoking strong 
negative emotions, potentially leading to hatred, incitement and, 
ultimately, the justification of violence.
    A couple of months ago, while searching Russian-language sites for 
information on the growing presence of Russian fighters with ISIS in 
Syria, I was directed by one of the links to one of Russia's most 
popular sites, an equivalent of Facebook called VKontakte, which has 
hundreds of thousands of visitors each day both from Russia and the 
Former Soviet Union. Before I could get to the articles I was looking 
for, I saw pictured at the top of the opening page a cartoonish Uncle 
Sam holding on his lap a baby clad in a black uniform with a 
Kalashnikov on its back. The caption read: ``ISIS is a project of 
America's two-party system.''
    As an expert on Russian propaganda in Estonia put it, this effort 
has produced ``a separate reality created by Russian media'' in which 
he claims many ethnic Russian Estonians already live and which creates 
enormous problems for democratic politics.
    In Kyiv earlier this year one of my most memorable meetings was 
with the Dean of the School of Journalism at the Kyiv-Mohila Academy, 
Professor Evhen Fedchenko. Together with his students he runs a Web 
site called StopFake.org, which records some of the Russian propaganda 
masquerading as news. Here are a few examples:

  <bullet> A report in the Russian media that the U.S. President has 
        extended a decree that bans balalaikas (which are traditional 
        Russian musical instruments) in the United States until 2020.
  <bullet> Russia's most widely watched Pervyi Kanal, or First Channel, 
        television network, broadcast an interview with a terrified 
        woman identified as a refugee from the territory controlled by 
        the Ukrainian Government. She said she witnessed Ukrainian 
        soldiers publicly executing the wife and son of a pro-Russian 
        separatist. The child was crucified on a bulletin board, while 
        the woman was allegedly dragged behind a tank until she died. 
        The story was proven to be a complete fake.
  <bullet> Another popular Russian television channel posted on 
        VKontakte and other social media sites an invented conversation 
        between a Ukrainian military commander and a German doctor in 
        which they discuss in detail the harvesting of internal organs, 
        presumably of deceased members of the pro-Russian population 
        caught up in the fighting. The officer is ``quoted'' as saying 
        that ``we would have a great deal of material to work with, 
        thanks to our Western partners.''

    Again, bear in mind that Russian television, especially the news 
programs I just mentioned are viewed by millions of people, especially 
ethnic Russians and Russian-speakers, outside Russia.
    Fortunately, there is an antidote to this poison. It is impossible, 
of course, to sanitize all of the lies, given the lopsidedness of the 
manpower, but there is enough of it to deflate the effort considerably.
    As usual, the strongest antidote is a rich, diverse, and uncensored 
democratic media environment. But as such an environment does not yet 
fully exist in most post-Soviet states, the U.S. international media 
effort could be of great help.
    Despite being barred from domestic outlets in Russia, the online 
audience of Radio Free Europe/Radio Liberty and Voice of America online 
has been growing, reaching 4.7 million this summer. In my office last 
week, a top Russian pro-democracy leader, Vladimir Milov told me that 
``Radio Liberty is by far the finest and most influential of unofficial 
sources of political information and analysis in Russia today!'' 
According to independent research, nearly 2 million Russians are 
watching RFR/RL's flagship 30-minute nightly news program Nastoyashchee 
vremya or Current Time online every week.
    Last year, a nationwide Gallup survey in Ukraine showed that the 
size of the VOA audience across all of its media platforms in the 
Ukrainian and Russian languages had doubled since 2012 to nearly 7 
million adults using VOA every week--that is 18 percent of all adults 
in Ukraine plus nearly 3 million using RFE/RL.
    In Kyiv I was repeatedly struck by the deep appreciation by 
Ukraine's political and media elites of the content provided by Radio 
Liberty. RFE/RL content is being recognized as superior not just to the 
Russian propaganda but, to the output of the oligarch-dominated 
Ukrainian media, which is just as important. As a result, several top 
Ukrainian television networks competed for the prime time broadcast 
rights for Current Time.
    Mr. Chairman, we are facing a determined and often refined 
propaganda effort. From the sophisticated exploitation of Western media 
patterns and vocabulary to outright lies and crude fakes, the goal 
remains the same: to undermine the people's trust in democratic 
politics and policies and in free and fair media. As this effort is 
vital to the maintenance of the present Russian regime, it will be with 
us for a long time.
    Time, and, talent, and risk-taking innovation and yes, money for 
U.S. international media will continue to be needed to counter it. 
Thank you.

----------------
End Notes

    \1\ Stephen Castle, ``A Russian TV Insider Describes a Modern 
Propaganda Machine,'' New York Times, February 13, 2015.
    \2\ ``International Poll: No Consensus on Who Was Behind 9/11.'' 
World Public Opinion, September 10, 2008.
    \3\ Ibid.
    \4\ Alan Cullison, ``Russia Uses MH17 Crash for Propaganda,'' Wall 
Street Journal, July 23, 2015.
    \5\ The Daily Beast reports that in 2012, RT's daily viewership did 
not reach the minimum Nielsen rating threshold of 30,000 people in the 
United States, and that in Europe, its audience has amounted to less 
than 0.1 percent of total viewership, except in Britain where it does 
slightly better, garnering 0.17 percent of the total viewing population 
in 2015. RT's oft-cited figure of ``630 million people in 100 
countries'' refers to the potential geographical reach of its 
programming based on where RT is available--not on how many people are 
actually viewing it. See: Katie Zavadski, ``Putin's Propaganda TV Lies 
about its Popularity,'' The Daily Beast, September 17, 2015.

    Senator Johnson. Thank you, Dr. Aron.
    Our next witness is Peter Pomerantsev. Mr. Pomerantsev is a 
senior fellow at the Legatum Institute, as well as an author 
and documentary producer. His writing is featured regularly in 
the London Review of Books, Atlantic, the Financial Times, 
focusing largely on 21st century propaganda. His book about 
working as a TV producer in Putin's Russia, ``Nothing is True, 
and Everything is Possible,'' was published in 2015.
    Mr. Pomerantsev.

  STATEMENT OF PETER POMERANTSEV, SENIOR FELLOW, TRANSITIONS 
        FORUM, LEGATUM INSTITUTE, LONDON, UNITED KINGDOM

    Mr. Pomerantsev. I cannot talk about Russia right now 
without at least sending my personal condolences to the 
families and loved ones of the victims of this terrible air 
disaster that happened over Egypt recently.
    I was looking this morning, actually--I had jet lag--I was 
looking at the sort of--the sort of Instagrams and social media 
sites of some of the victims, and there were young people who 
had been on holiday, and it was absolutely clear that their 
lifestyles and aspirations were no different to young people in 
Wichita. And that was always the dream of social media and of 
the Information Age, that it would bring people together across 
borders, that it would be a catalyst for mutual understanding. 
And yet, throughout the world, we are seeing the Information 
Age becoming the Misinformation Age. We are seeing new 
information technology and old--the old power of television, 
which is so much more--bigger and more global now, being used 
to sew enmity and hatred. We have the example of ISIS. In 
southeast Asia, we can see how China is using the doctrine of 
the three warfares to make sure media and psychological war to 
undermine the United States. We have plenty of influences--
instances of misinformation being used inside the United States 
to mess with the stock market, for example.
    And, of course, we have Russia, which is really the avant 
garde of making the Information Age into the Disinformation 
Age. It does so domestically. If Stalin was 75 percent violence 
and 25 percent propaganda, Putin's the other way around, he is 
75 percent propaganda and 25 percent violence. And they do it 
internationally through, really, a doctrine that is now right 
in the middle of Russian military thinking, the idea that you 
can bring other countries to their knees, that you can, 
basically, enhance your foreign policy power, largely through 
information and psychological operations--again, with a minimum 
of violence.
    If there is one key theme that runs through the whole of 
the Kremlin's thinking, it is cynicism. It is the idea that, 
domestically, there is no alternative to Putin. You know, you 
create a media space where all the possible opposition is gone, 
the ones that remain are freaks, basically, and Putin is built 
up as the strongest and only alternative. It is a cynicism that 
says there is no difference between democracies and 
authoritarian regimes. That is the main message of the 
Kremlin's propaganda, both domestically and internationally. 
They are always saying, ``The U.S. is just as bad as we are. 
Europe is just as bad as we are.'' They are not trying to get 
Putin's Pew numbers up. You know, they are just trying to erode 
faith in democratic systems elsewhere. Putin does not want to 
be loved internationally. He wants to be feared. That is a 
very, very different kind of process.
    And the biggest cynicism is, they say there is no 
difference between truth and lies. You know, so it does not 
matter if Vladimir Putin says, one day, ``There are no Russian 
soldiers in Crimea,'' and, a few weeks later, says, ``Oh, yes, 
there are,'' because what they are saying is, there is no value 
to the idea of truth.
    And I worked in the European Endowment for Democracy 
Project, and we looked at a--at little focus groups in eastern 
Europe in the sort of a--in what we call the ``front-line 
states.'' We looked at the 90 million Russian speakers outside 
of Russia. You know, and we talk about international--90 
million outside of Russia. And here is--I am doing, like, a 
compendium quote, what we heard from a lot of different people 
in Latvia or in eastern Ukraine, and they were, like, ``We have 
so many media surrounding us--American, Russian, Ukrainian, 
international--we do not believe anyone anymore. But, the 
Russians tell such an emotional story, it is so cinematic and 
entertaining, that we go with the Russians. It rings true to 
our hearts.''
    So, it is the opposite question from the cold war, when we 
had to break through censorship to get information to people. 
Now the problem is too much information, people do not trust 
anyone, and the Russians tell this incredibly compelling story 
of crucified children, incredible game shows. Channel One, the 
biggest Russian channel, is a very successful entertainment 
machine, not just a disinformation machine.
    So, we face a slightly new challenge. It is a challenge, in 
one word, to balance out cynicism to win trust, to create 
communities of trust again. That is the Russian strategy, to 
destroy, divide, and conquer, sew fear and distrust. How do we 
do that? There are so many things that we could be doing. There 
is no basic Russian-language news agency that would be giving 
people information about their daily lives, you know, about 
hospitals, roads, something people knows about them and, 
therefore, they can relate to. We can talk about increasing 
media literacy. We can talk about investing in narrative 
programming, not just sort of news and talk, but the kind of 
big TV shows and big narrative projects that really convince 
people that you understand them. But, the most important thing 
that we need is an understanding that the age of--that 
misinformation is--may be one of the great challenges of the 
21st century, and that we need a strategy to start addressing 
it.
    I will do one last thing. The last time we had a burst of 
information technology was the start of the 20th century, when 
radio appeared, when cinema appeared. And that led, not to a 
better world, that led to the emergence of totalitarian 
propaganda, which swept away critical thinking. We stand at the 
start of a tide now. Russia is just exploiting--ruthlessly and 
successfully exploiting this trend. It is happening across the 
world. And that tide will only grow and grow.
    [The prepared statement of Mr. Pomerantsev follows:]

                Prepared Statement of Peter Pomerantsev

    Peter Pomerantsev is a Senior Fellow at the Legatum Institute, 
London, where he runs a project on 21st century propaganda and how to 
counter it. He was the coauthor of a study commissioned by the Dutch, 
U.K. and Latvian Governments to the European Endowment for Democracy, 
which identified ways to strengthen independent Russian language media. 
He is one of the coauthors of a new project by CEPA, funded by the 
Smith Richardson Foundation, on how to counter Russian propaganda in 
Europe.
    Pomerantsev frequently contributes to the FT, Foreign Policy, 
Politico and many other publications. He has testified to the U.S. 
Congress on how to combat Kremlin propaganda. His book about Russian 
media, ``Nothing is True and Everything is Possible,'' is long-listed 
for the Guardian and Samuel Johnson Prizes and is translated into over 
10 languages.
    The West is belatedly waking up to the power of the Kremlin's media 
machine. The Supreme Commander of NATO called the annexation of Crimea 
``the most amazing information warfare blitzkrieg we have ever seen.'' 
Zhanna Nemtsova, daughter of murdered Russian opposition politician 
Boris Nemtsov, blames the climate of hate created by Kremlin propaganda 
for the murder of her father and starting the war in Ukraine. ``We are 
losing the information war'' complains the British head of the House of 
Commons culture and media committee.
    The Soviet Empire may be gone but the Kremlin still has media 
hegemony over the Russian language space: the 149 million citizens of 
Russia, as well as the estimated 93 million in the former U.S.S.R. who 
have Russian as a fluent first or second language (not to mention a 
further 5 million or so in Germany).
    A recent project by the European Endowment for Democracy, a 
Brussels foundation, looked for ways to tackle this challenge. I was 
one of the authors, and we soon found differences between today's 
situation and the cold war.
    Back in the 20th century the job of Western Russian language media 
such as the BBC World Service or Radio Free Europe was to break through 
the information iron curtain. The battle was for alternative points of 
view and against censorship. Today TV is strictly controlled by the 
Kremlin inside Russia, but there is easy access to other media online. 
Meanwhile Russian speakers in Ukraine, Moldova or the Baltics have 
access to a plethora of media, Kremlin, local and Western, each 
presenting strikingly contradictory versions of reality.
    Take Estonia, where viewers who followed the rival Russian and 
Western stories of the causes for the downing of MH17 ended up simply 
disbelieving both sides. Something similar is happening in Kharkiv, a 
town on the Russian-Ukrainian border, where polls showed a high number 
of people cynical about all media, whether Russian, Western, or 
Ukrainian. In a landscape where viewers trust no one, they are still 
most entranced by Russian television channels which, according to 
Latvian focus group respondents, ``are emotionally attractive, because 
some news you watch as an exciting movie. You don't trust it, but watch 
it gladly.''
    In order to woo viewers the Kremlin has utterly blurred the lines 
between fact and fiction. Kremlin ``current affairs'' programs are 
filled with spectacular scare-stories about Russian children crucified 
by Ukrainian militias or U.S. conspiracies to ethnically cleanse East 
Ukraine. In a context where no one ``believes'' any media, all that 
matters is that the ``news'' is sensationalist and cinematic.
    The challenge for independent media is thus not simply to deliver 
information, but to win trust. This necessitates content that is 
engaging, reflecting both national and local contexts, and that delves 
deep into the lived reality of Russian-language speakers across the 
region.
    Reality-based, locally relevant, engaging programming is the one 
type of content Kremlin media, despite its many successes, does not 
produce.
    News ignores local social problems, whether it's the health 
service, schools or courts. There is currently no quality Russian 
language news agency covering the whole of the Russian speaking world. 
A first step could be to expand the Russian language bureaus of such 
agencies as the BBC or AFP so they could cover the local news the 
Kremlin ignores; or create a news-hub that maximized existing sources. 
One might not be able to convince Kremlin-captive audiences about who 
shot down MH17, but one can be more relevant to them by focusing on 
local issues.
    Kremlin entertainment meanwhile is largely devoid of socially 
engaged documentary formats: docu-soaps about institutions such as 
schools or the army; reality shows exploring ethnic tensions. Local 
broadcasters need help, both financial and professional, to create this 
sort of quality content to create the local versions of radio hits like 
``This American Life'' or ``Make Bradford British,'' a British 
documentary program that grappled with ethnic hatred by putting people 
of different races in one house (in the style of the U.S. show Big 
Brother) and forcing them to confront their prejudices. Imagine a 
Russian-language program that would use a similar tactic to probe an 
emotionally charged subject--say, the bitterness between Russians and 
Ukrainians in a place such as Kharkiv.
    New programs could also invite Russians to tackle historical 
traumas through formats such as the popular BBC series ``Who Do You 
Think You Are?''--a show that follows celebrities as they trace the 
lives of their ancestors, often engaging with the horrors of 20th-
century wars and genocide. In the Russian case, these kinds of programs 
would require their subjects to explore the human cost of the gulag, 
the holodomor (Ukraine's enforced famine under Stalin), and the KGB 
arrests. Some participants would discover their ancestors among the 
victims; others, among the executioners. In both cases, they would have 
to reckon with past traumas, a highly emotional and cathartic process. 
Such content would also allow the audience to move away from the 
collective historical narratives imposed by the Kremlin, which stress 
how Russia's leaders, from Stalin to Putin, led the nation to triumph.
    Ideally programming would dove-tail with policy priorities: 
judicial reform in Moldova, for example, accompanied by entertainment 
shows about courts. BBC Media Action (the charity arm of the BBC funded 
by grants and not the license fee) have been working with the fledgling 
Ukrainian public broadcaster on short dramas about young people caught 
up in the war from different parts of the country. The budget is 
painfully miniscule but it's exactly the sort of project we need so 
much more of.
    Apart from classical media programmes we should also prioritize 
media literacy projects which help populations withstand the new 
Kremlin propaganda and tell the difference between spin and evidence-
based inquiry. Online investigative projects, such as Ukraine's myth-
busting Stop Fake or Alexey Navalny's corruption-busting Web site which 
finds the secret cash stashes of crooked politicians, are powerful not 
only because of the information they provide, but because they involve 
citizens in an interactive, open source search for the truth and thus 
build communities of trust and critical inquiry.
    The key thing is to recognize, as Vladimir Putin understands so 
well, that media and entertainment are as essential to societies and 
security as doctors or soldiers. The West made a dreadful mistake in 
the 1990s, abandoning the development of media in the former Soviet 
Union to the ``free market'': instead media were captured by oligarchs 
or corrupt regimes, who have used them for malign ends. After the cold 
war it was considered part of the ``peace dividend'' to slash funding 
for Radio Free Europe or BBC Russian. A much greater cost is being paid 
now.

    Senator Johnson. Thank you, Mr. Pomerantsev.
    Our next witness is Maksymilian Czuperski. Mr. Czuperski 
serves as a Special Assistant to the President and CEO of the 
Atlantic Council. At the Atlantic Council, he has led efforts 
to open-source intelligence and digital forensic research, 
including for the report, ``Hiding in Plain Sight: Putin's War 
in Ukraine.'' This report demonstrates Russian involvement in 
the conflict in Ukraine using open-source information and 
social media. He has appeared in the BBC, Vice News, and 
conducts regular briefing and workshop sessions for governments 
within the NATO alliance on these innovative methods.
    Mr. Czuperski.

 STATEMENT OF MAKSYMILIAN CZUPERSKI, SPECIAL ASSISTANT TO THE 
    PRESIDENT AND CEO, THE ATLANTIC COUNCIL, WASHINGTON, DC

    Mr. Czuperski. Thank you, Chairman Johnson, Ranking Member 
Shaheen, members of the committee.
    I am honored to appear before you today as a Polish citizen 
and an EU citizen who was raised on a continent defined by 
division of a Europe whole, free, and at peace, where the 
children of former enemies grew up as friends, and where the 
longest era of peace on the continent has been marked by 
freedom, democracy, tolerance, and, foremost, trust.
    But, today, this vision, long a key U.S. strategic goal, is 
being tested by forces that seek to undermine the Europe I grew 
up in. No geopolitical event has made that more clear than 
Russia's invasion of Ukraine last year. And, critically, it is 
not only boots on the ground that challenged this vision, but 
also a raging propaganda machine aiming to destroy the West's 
confidence in its ideals and accomplishments in Europe. This 
Russian-led propaganda machine has become so effective, that 
we, as the West, have sleepwalked into the unimaginable: the 
armed annexation by one state territory belonging to another. 
This propaganda machine is providing a cover for a revisionist 
Russian leader.
    And so, ``I can tell you outright and unequivocally that 
there are no Russian troops in Ukraine.'' These words the words 
of President Putin early this year, and they were outright and 
unequivocally a lie. When Western officials presented strong 
evidence that Russian troops have, in fact, been deployed in 
Ukraine, the Kremlin was quick to dismiss the evidence as just 
images from computer games. And, for a long time, the Kremlin 
succeeded in discrediting us, because today's information 
systems are also, unfortunately, hotlines for which ill-
intentioned leaders can channel deception. As we fumbled, a new 
reality was emerging. We are no longer merely in an Information 
Age in which narratives are shaped by one flow of information 
pushing against another, but, in fact, we are in an Engagement 
Age, where the narratives we create are shaped by how we engage 
with one another.
    Unlike in the past, citizens have unprecedented power to 
access the vast amounts of information, not to mention create, 
engage, share, and, most importantly, discover information 
freely. This is a new age that has brought the world and Europe 
itself closer together, but also, at the same time, it is being 
hijacked by less benevolent forces, such as those of Mr. Putin. 
Troll shops and cutting-edge media factories in Russia work 
around the clock to engage and misinform their audiences 
through flashy content. We know this, because some of those who 
were tasked with the job of spreading lies 140 characters at a 
time came out, revealing a glimpse into what happens within 
those troll shops.
    The spreading of digital breadcrumbs is an attempt to 
undermine our Western narrative and values, and divide NATO and 
the EU. But, the Engagement Age has also reached Russia, 
providing us with new opportunities to challenge Mr. Putin's 
deception. Because the desire to share and connect is 
fundamentally a value shared by all. Hence, rather than rely on 
the government's information to expose Mr. Putin's lies, the 
Atlantic Council's report ``Hiding in Plain Sight'' collected 
and presented the facts that the Kremlin has been trying to 
hide so desperately.
    When we post selfies, videos, photos, tweets, and Facebook 
updates, then we frequently leave so-called ``digital 
breadcrumbs'' behind that are often publicly accessible and 
even entail geotags with exact geographical details of where a 
crumb was created. Anyone can access those digital breadcrumbs. 
And using innovative forensic research techniques, we were able 
to then tell the true story of what had unfolded in Ukraine. 
This is no civil war, and has not been a civil war, but, 
rather, a Kremlin-manufactured war fueled by Russian equipment, 
fought by Russian soldiers, and directed by Mr. Putin. One of 
the many Russian soldiers we found to have been sent to fight 
in Ukraine was Bato Dambayev, who, after participating in 
fighting in Donbas, returned home to his home region, Buryita, 
more than 4,000 miles away on the Russian-Mongolian border. 
Like many of his friends, he documented his adventure by 
posting selfies and pictures along the ways. And these methods 
also allowed us to then tell the story what actually had 
happened on the day that MH17 was downed. Eliot Higgins and his 
colleagues Bellingcat Way would actually identify the very BUK 
missile system that is believed to have downed MH17, and that 
was supplied to by Russian forces.
    But, if we could expose Russia's war in Ukraine, despite it 
being publicly denied by its leader, we ask ourselves, What was 
the potential for these methods within civil society and 
journalists? Simon Ostrovsky, of VICE News, tested our digital 
forensic research methods by recreating Bato's journey. And as 
we watched Simon standing in the very location that Bato was 
taking his selfies, we are able to see how protecting our 
narrative nowadays is much more powerful in the hand of our 
journalists and the public rather than just in the hands of the 
government.
    And hence, we recommend that these skills, these digital 
forensic research skills, are trained to the public and to 
civil society so that they can help us more proactively 
distinguished between fact and fiction. This requires 
empowering citizens to be part of the process in stopping those 
who otherwise would attempt to blind us.
    So, in closing, let me please underscore that Mr. Putin has 
used the crisis in Ukraine and Syria, first and foremost, to 
consolidate his own authority at home, and--at home so that he 
can distract from the bad governance that he has been leading 
while repressing civil society, independent media, and social 
media networks. Therefore, revealing Putin's deception of his 
own people is a key part of the strategy to end the aggression 
in Europe by hitting him where he is most vulnerable.
    Thank you.
    [The prepared statement of Mr. Czuperski follows:]

              Prepared Statement of Maksymillian Czuperski

    Chairman Johnson, Ranking Member Shaheen, members of the committee, 
I am honored to appear before you today. As a Polish citizen, I was 
raised on a continent that was defined by the vision of a Europe whole, 
free, and at peace. A Europe in which the children of those who were 
once enemies became each other's best friends, and in which freedom, 
democracy, and tolerance have served as unifying forces during the 
longest era of peace and prosperity on the European Continent. A Europe 
in which diversity laid the foundation not for bloodshed and violence, 
but solidarity and progress. This Europe has become a beacon of hope--
an opportunity for a better future for the thousands who risk their 
lives as they seek to reach its shores, or remain steadfast in the face 
of oppression and injustice, just to inch closer to that dream.
    But today this vision--which has long been a key U.S. strategic 
goal--and the continent this vision helped define are being tested by 
forces that seek to undermine the Europe I grew up in. No geopolitical 
event has made that more clear than Russia's invasion of Ukraine last 
year. And, critically, it is not only Russian boots on the ground that 
challenge the vision of a Europe whole, free, and at peace, but also a 
raging propaganda machine aiming to destroy the West's confidence in 
its ideals and accomplishments in Europe.
    This Russian-led propaganda machine has become so effective that 
we, as the United States and Europe, have sleep-walked into the 
unimaginable: the armed annexation by one state of territory belonging 
to another, an act not seen in Europe since 1945. This propaganda 
machine is providing cover for a revisionist Russian leader to reverse 
the progress that the Western nations have made together in Europe over 
the past two decades, and create a Europe divided, dictated to, and at 
war.
    ``I can tell you outright and unequivocally that there are no 
Russian troops in Ukraine.'' \1\--These were the words of Vladimir 
Putin, and they were, outright and unequivocally, a lie.
    In fact, Putin has been lying to his own people while Russian 
citizens and soldiers have been fighting and dying in a war of his own 
making. Thanks to the propaganda machine he has built; it has been 
possible for the Kremlin to deny any allegations of Russian involvement 
in Ukraine. Said Foreign Minister Sergei Lavrov in January of this 
year: ``If you allege [that Russian troops are in Ukraine] so 
confidently, present the facts. But nobody can present the facts, or 
doesn't want to. So before demanding from us that we stop doing 
something, please present proof that we have done it.'' \2\
    When Western officials did indeed present strong evidence that 
Russian troops have been deployed in Ukraine, the Kremlin was quick to 
dismiss the evidence as ``just images from computer games'' \3\ and has 
sought to discredit information released by NATO, the U.S. Government, 
and its European allies as a ``smear campaign.'' \4\ And for a long 
time the Kremlin succeeded, because today's information systems are 
also, unfortunately, hotlines through which ill-intentioned leaders can 
channel misinformation.
    As we stumbled while Europe's borders were redrawn, a broader new 
reality was also emerging: We are no longer merely in an information 
age, in which narratives are shaped by one flow of information pushing 
against another and simply presenting the truth can discredit lies. 
Today, we are in the engagement age whereby the narratives we create 
are shaped by how we communicate with one another. Unlike the past, we 
have unprecedented power to access vast amounts of information that is 
now in citizens' hands, not to mention the power to create, engage 
with, share and most importantly discover this information freely. It 
is a new age that has brought the world and Europe itself closer 
together, and made it more open, but that is now being hijacked by less 
benevolent forces such as those of Mr. Putin.
    Moscow has seized this new space through a concentrated and 
engaging propaganda campaign--hybrid information warfare if you will--
with the aim of sowing confusion and encouraging or justifying the 
West's ambivalent response to Russia's aggression, now also in Syria.
    Troll-shops and cutting-edge media factories in Russia work around 
the clock to engage and misinform their audience through flashy 
content. We know this, because all of us have seen the deceptive videos 
posted online by the outlet RT that today claims to be the most watched 
news network on YouTube with over 2 billion views.\5\ And some of those 
who were tasked with the job of spreading lies 140 characters at a 
time, such as 34-year-old Lyudmila Savchuk, have come out providing us 
with a rare glimpse into what happens within these shops.\6\
    This spreading of ``digital breadcrumbs'' is an attempt to 
undermine our Western narrative and values, and divide NATO and the EU, 
by exploiting divisions within both nations and communities.
    But the engagement age has also reached Russia. In fact, the 
Kremlin has recognized the potential of this new age to the degree that 
it is concerned about its impact on its own people. Several weeks 
before Mr. Putin sent his troops--little green men as they were known--
to Crimea and launched his propaganda assault on Ukraine, he first 
struck at home.
    On January 24, 2014, the Russian equivalent of Facebook, the 
network VKontakte, with its 60 million daily users, was forcefully 
taken over from its former CEO Pavel Durov, by businessmen allied with 
Mr. Putin in an attempt to control the potential dangers of the 
engagement age to Russia's leadership.
    But, while Mr. Putin is attempting to control the digital space, 
there are limits to the level of control that can be put on 
opportunities for the Russian people to engage with one another and to 
discuss what is actually happening in Russia.
    This also provides us with new opportunities to challenge Mr. 
Putin's propaganda machine.
    The desire to share and connect is a fundamental value shared by 
all. Hence, rather than rely on government information to expose Mr. 
Putin's lies, the Atlantic Council's report, ``Hiding in Plain Sight: 
Putin's War in Ukraine,'' collected and presented the facts that the 
Kremlin had been trying to hide by tapping into people's desire to 
share and engage: When we post selfies, videos, photos, tweets, and 
Facebook updates then we frequently leave so called ``digital 
breadcrumbs'' behind that are often publicly accessible and even entail 
geotags with the exact geographical details of where a crumb was 
created. Anyone can access these ``digital breadcrumbs.'' But we, of 
course, don't take these face value, which why using innovative digital 
forensic research and verification techniques including geolocating we 
can differentiate between fact and fiction. This allowed us tell the 
true story of Russia's war in Ukraine.
    This was no civil war. The evidence presented in ``Hiding in Plain 
Sight'' makes clear that the conflict in Ukraine's east is a Kremlin-
manufactured war, fueled by Russian equipment, fought by Russian 
soldiers, and directed by Mr. Putin.
    Our team at the Atlantic Council was able to reveal numerous cases 
of Russian soldiers being sent to fight in Ukraine. One of them was 
Bato Dambayev of the 37th Motorized Infantry Brigade who, after 
participating in the fierce fighting in Donbas, returned home to the 
city of Buryita along the Russian-Mongolian border more than 4,000 
miles from the Ukrainian conflict. An ordinary Russian soldier, he had 
trained at large camp near the Russian city of Kuzminka from where he 
was sent across the border to fight in Ukraine. Like many of his 
friends, he documented his adventure by posting selfies and pictures 
along the way.
    For a long time, the Kremlin has succeeded in setting the narrative 
for the Ukraine conflict, even managing to convince many that it is 
purely a civil war. But the story of Bato and thousands of others like 
him shows a different reality. The innovative methods used to show 
Bato's journey, are also the methods our colleague, award winning 
citizen, journalist Eliot Higgins and his team at Bellingcat, used to 
uncover the Russian military brigade that is believed to have supplied 
the very BUK missile launcher that downed the civilian aircraft known 
as flight MH17.
    But if we could expose Russia's war in Ukraine despite it being 
publicly denied by its leader, we asked ourselves, what potential did 
these methods hold for civil society leaders and journalists?
    That's why we shared our findings with Simon Ostrovsky of VICE 
News. He was able to follow the journey of Bato and verify once again 
that these innovative digital forensic research methods and open source 
intelligence produce results. As we watched Simon standing in the very 
locations that Bato's selfies were taken, we recognized that one of the 
strongest means of protecting our narrative against misinformation is 
equipping and training journalists with these new methods, to use in 
both their own countries and abroad.
    We also produced this body of research for an even more compelling 
reason: If the international community cannot distinguish fact from 
fiction, or chooses not to do so in public, it is unlikely to coalesce 
around an effective strategy to support Ukraine and deter Mr. Putin.
    Our experience taught us that:

          (1) The best antidote to misinformation in this hybrid war is 
        clarity; to speak the truth but foremost to empower the public 
        to reveal and communicate it clearly.
          (2) Second, social media forensics and geolocation analysis 
        are powerful tools:

                  Information once available only to intelligence 
                agencies is now available to all. We do not need to 
                engage in an information war, rather we need to empower 
                civil society, journalists and citizens to distinguish 
                between fact and fiction.
                  This matters: because it can help overcome the 
                healthy skepticism that the public may have toward 
                official government narratives.
                  This is the new reality of a world in which 
                individuals and nongovernmental actors play critical 
                roles in the engagement era.
                  The best part is--you don't need to believe me or my 
                coauthors-- 
                the methods we've used in our report are essentially a 
                tool that we don't control.

    This is the principle behind the concept of ``information defense'' 
put forward by our colleague, Ben Nimmo, a British specialist in 
analyzing information warfare. He argues that the key to defeating 
disinformation is to support media, academics and civil society in 
gathering information on areas of particular concern, so that they can 
debunk any disinformation as soon as it is released.\7\ We therefor 
recommend expanding that support into the digital arena through 
concrete training programs and workshops for journalists, civil society 
leaders, and ordinary citizens, not only here at home but also in 
regions most effected by the propaganda war, so that they can navigate 
the engagement age more effectively and do so equipped with 
groundbreaking new digital forensic research methods.
    This concept was proven in Syria, where colleagues such as the 
Bellingcat group and blogger Ruslan Leviev have spent 4 years building 
up an intelligence picture of the conflict from social media.\8\ When 
Russia began bombing targets in Syria and claiming that they were from 
the Islamic State, it took Ruslan Leviev just hours to prove that the 
Russians were lying, and were, in fact, hitting the moderate 
opposition. Russia's claim that it is focusing on IS was shredded on 
the first day--leaving it without the diplomatic legitimacy that 
striking IS would give.
    It is important to bear in mind that Mr. Putin has used the 
Ukrainian and Syrian crises first and foremost to consolidate his own 
authority at home, whipping up patriotic sentiment to paper over the 
Kremlin's own failures in governance while repressing civil society, 
independent media, and social networks.
    Chairman Ed Royce rightly pointed out in his Wall Street Journal 
op-ed earlier this year, that Russia's propaganda machine, ``may be 
more dangerous than any military, because no artillery can stop their 
lies from spreading and undermining U.S. security interests in Europe'' 
\9\--For that it is time that we put resources where they matter as we 
did in the cold war, but with the understanding that a new era requires 
new thinking and new solutions: It is time that we don't blindly push 
information, but engage in the digital infosphere with our citizens so 
that they can play a role in distinguishing between fact and fiction. 
This requires empowering citizens to be part of the process and 
stopping those who otherwise attempt to blind.
    Therefore, revealing Putin's deception of his own people is a key 
part of a strategy to end his aggression in Europe, by hitting him 
where he is vulnerable.
    We must also demonstrate solidarity with those Russians who are 
courageous enough to take a stand against the lies of the Putin regime.
    The first victims of Putin are the people of Russia, who deserve 
better.
    Confronting Mr. Putin's aggression does not imply a confrontation 
against the Russian people. As the cosigners of the preface in our 
report ``Hiding in Plain Sight'' point out: ``We all share a common 
vision for a Europe whole, free, and at peace, in which Russia finds 
its peaceful place. But Mr. Putin's war in Ukraine threatens this 
vision and the international order.'' \10\

----------------
End Notes

    \1\ http://en.kremlin.ru/events/president/news/49261.
    \2\ http://www.reuters.com/article/2015/01/22/us-ukraine-crisis-
davos-poroshenko-idUSKBN0KU1TX20150122.
    \3\ http://www.nbcnews.com/storyline/ukraine-crisis/kremlin-
satellite-images-russian-troops-computer-games-n191771.
    \4\ http://www.bbc.com/news/world-europe-28492474.
    \5\ https://www.rt.com/news/214723-rt-two-billion-youtube/.
    \6\ http://www.voanews.com/content/russians-get-glimpse-of-
internet-troll-factory/2846484.html.
    \7\ http://www.li.com/events/information-at-war-from-china-s-three-
warfares-to-nato-s-narratives.
    \8\ https://www.bellingcat.com/news/mena/2015/09/07/are-there-
russian-troops-fighting-in-syria/.
    \9\ http://www.wsj.com/articles/countering-putins-information-
weapons-of-war-1429052323?alg=y.
    \10\ http://www.atlanticcouncil.org/publications/reports/hiding-in-
plain-sight-putin-s-war-in-ukraine-and-boris-nemtsov-s-putin-war.

    Senator Johnson. Thank you, Mr. Czuperski.
    Our final witness is Ms. Heather Conley. Ms. Conley is 
senior vice president for Europe, Eurasia, and the Arctic, and 
Director of the Europe Program at the Center for Strategic and 
International Studies, CSIS. Prior to joining CSIS, she served 
as an executive director at the American National Red Cross and 
as Deputy Assistant Secretary of State in the Bureau for 
European and Eurasian Affairs.
    Ms. Conley.

STATEMENT OF HEATHER CONLEY, SENIOR VICE PRESIDENT FOR EUROPE, 
 EURASIA, AND THE ARCTIC, AND DIRECTOR, EUROPE PROGRAM, CENTER 
    FOR STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Ms. Conley. Mr. Chairman, Senator Shaheen, thank you so 
much for this opportunity to testify before you today on a 
subject of great importance concerning Russian influence in 
Europe.
    I believe this is a subject area where there is little 
holistic understanding of the Kremlin's tools and methodology 
in either Europe or the United States, and, without 
understanding how this influence works and the tools that are 
deployed, we cannot identify appropriate responses to counter 
and ultimately combat this increasingly effective form of 
manipulation. I am particularly concerned how it is being 
deployed within NATO countries today.
    Strategic communications directed toward the Russian people 
and the international community is an essential part of 
Russia's full-spectrum toolkit designed to shape the 21st 
century battlespace. There are conventional and nonconventional 
components to this strategy and, as Senator Gardner had 
mentioned, one of the conventional approaches today, Russian 
submarines, are closely examining the locations of European 
undersea fiber-optic cables to disrupt all Internet and 
communication lines, military command and control, essential 
commerce, the functioning of critical infrastructure that will 
prevent government communications to its population. In fact, 
this summer, a Russian vessel continually harassed a Swedish 
research vessel, which was lying a new fiber-optic cable 
connecting Sweden to Lithuania. Again, Ukrainian military 
forces have repeatedly underscored the effectiveness of Russian 
military forces in jamming their radar in military 
communications as well as UAVs operated by the OSCE to monitor 
the Minsk cease-fire agreement. And clearly the United States 
and NATO forces need to exercise these various scenarios to 
better prepare for their eventuality.
    But, the focus of this hearing is to gain a better 
understanding of the Kremlin's use of nonconventional means to 
shape and influence public opinion and political outcomes in 
democratic societies. But, please make no mistake, these 
nonconventional means equally shape the future battlespace.
    The origins of the Kremlin's policy were developed shortly 
following the collapse of the Soviet Union and can be found in 
Russia's Compatriot Policy. This policy establishes links 
estimated to 40 million ethnic Russians and Russian speakers 
living beyond the borders of the, at that time, newly formed 
Russian Federation. The definition of a Russian ``compatriot'' 
has been refined over time, but, generally, a compatriot 
demonstrates a connection to Russian culture, history, values, 
and language.
    Now, this concept has evolved to justify the protection of 
ethnic Russians living in the post-Soviet space, which means 
that Russia will intervene in a foreign country's internal 
affairs on behalf of, quote, ``their'' ethnic Russian 
populations. And in 2013, President Putin approved Russia's 
foreign policy concept, which provided for a comprehensive 
toolkit for achieving foreign policy objectives, building on 
civil society's potential, information, culture, and other 
methods and technologies to protect ethnic Russians abroad. 
And, of course, on March 18, 2014, this policy was the 
justification for Russia's illegal annexation of Crimea, when 
President Putin stated that, ``Millions of Russians and 
Russian-speaking people that live in Ukraine and will continue 
to do so, Russia will always defend their interests.''
    So, it is estimated that the Kremlin spends approximately 
$100 million annually to fund organizations such as Russkii 
Mir, or the Russian World Foundation. This entity supports 
Russia's Compatriot Policy. It provides funding to filmmakers, 
exactly as Dr. Aron was saying, to make that entertaining 
discourse, that liveliness that people watch, civil society 
organizations and political entities that promote the Russian 
language, Russian policies in general as well as affirming 
Russia's historical narrative of other period during and after 
the Second World War, which presents the then-Soviet Union as a 
liberator.
    Again, it is important to note that these policies have 
been in place in the mid-1990s. They have continued to evolve--
in fact, accelerated--since the ``color revolutions.'' The 
Kremlin has put an enormous amount of focus on the Compatriot 
Policy, using all tools at its disposal.
    In 2011, actually, the CSIS Europe program conducted a 
comprehensive assessment of the effectiveness of Russia's 
Compatriot Policy in Estonia. Mr. Chairman, with your 
permission, I ask that a copy of this report be submitted for 
the record. And we can see how its impact affects different 
countries in different ways, depending on the population and 
the historical relationship with Moscow, but there are a lot of 
commonalities.

[Editor's note.--The report mentioned above was too voluminous 
to include in the printed hearing. It will be retained in the 
permanent record of the committee.]

    And, if I may, just to give you an example of how this 
works: In Latvia, a country with 22--26 percent ethnic Russian 
population, and it works using Russian-owned media outlets. For 
example, in Latvia, the main three media outlets are controlled 
by Russian entities. For example, one is owned by Bank Rossiya, 
which has already been sanctioned by the United States. It owns 
half the shares in one station, while the other channels are 
owned by a single holding company, Baltic Media Alliance, which 
has 11 subsidiaries in the Baltic States alone. This alliance 
operates the most popular Russian television channels in the 
Baltic States, rebroadcasts very popular Russian television 
shows. The other channels are owned by two other Russian 
oligarchs. One Russian channel is registered in the United 
Kingdom, holds a U.K. broadcasting license, and falls under 
British regulatory scrutiny. These channels are used 
extensively to encourage Russian policies, and, in fact, once 
received--was prompted by the U.K. regulator to state that the 
channel was in violation of British regulations.
    This is a complicated way of saying that, in many ways, the 
problem is our own system. Russian companies are purchasing 
these media outlets, they are controlling them, they are 
controlling the message. The Compatriot Policy influences 
political parties, politicians, it uses cultural vehicles, it 
uses the Orthodox Church. It is a comprehensive policy, and it 
is happening within NATO countries today to shape public 
opinion, shape policy, potentially to provoke. This is 
extremely difficult to combat, because it takes democratic 
societies to fight that which is in their own system. I believe 
it requires an enormous amount of transparency and 
diversification of media resources and outlets.
    I am heartened to hear from Doctor Aron that RFE/RL is 
reaching those, but I fear those tools are limited. We have to 
look inside our own societies, diversify our media, initiate 
significant anticorruption, anti-kleptocracy initiatives, and 
fight for transparency in our media. Those are the best methods 
to combat this growing Russian influence in our own societies.
    Thank you very much.
    [The prepared statement of Ms. Conley follows:]

                Prepared Statement of Heather A. Conley

    Mr. Chairman, and members of the subcommittee, thank you for this 
opportunity to testify today on a subject of great importance 
concerning Russian influence in Europe. This is a subject area where 
there is little holistic understanding of the Kremlin's tools and 
methodology in either Europe or the United States. Without 
understanding how this influence works and the various tools that are 
deployed, we cannot identify appropriate responses to counter and 
ultimately combat this increasingly effective form of manipulation.
    Strategic communications, directed toward both the Russian people 
and the international community, is an essential part of Russia's full 
spectrum tool kit designed to shape the 21st century battlespace. There 
are conventional and nonconvention components to this strategy with the 
conventional or military applications being the most straightforward. 
Today, Russian submarines are closely examining the locations of 
European undersea fiber optic cables to disrupt all Internet and 
communication lines, military command and control, essential commerce, 
the functioning of critical infrastructure, and prevent government 
communication to its population. This summer, a Russian vessel 
continuously harassed a Swedish research vessel which was laying a new 
fiber optic cable that connects Sweden to Lithuania, ultimately 
preventing the Swedish vessel from laying the cable. Ukrainian military 
forces have repeatedly underscored the effectiveness of Russian 
military forces in jamming their radar and military communications in 
combat as well as UAVs operated by the OSCE to monitor the Minsk cease-
fire agreements.\1\ Clearly, U.S. and NATO forces need to exercise 
these various scenarios to better prepare for their eventuality.
    The focus of this hearing, however, is to gain a better 
understanding of the Kremlin's use of nonconventional means to shape 
and influence public opinion and political outcomes in democratic 
societies. But, make no mistake, these nonconventional means equally 
shape the future battlespace.
    The origins of the Kremlin's policy were developed shortly 
following the collapse of the Soviet Union and can be found in Russia's 
Compatriot Policy. This policy established links to the estimated 40 
million ethnic Russians and Russian speakers living beyond the newly 
formed borders of the Russian Federation.\2\ The definition of a 
Russian compatriot has been refined over time but generally a 
compatriot demonstrates a connection to Russian culture, history, 
values, and language. More recently, the policy has evolved to justify 
the protection of ethnic Russians living in the post-Soviet space which 
means that Russia will intervene in a foreign country's internal 
affairs on behalf of ``their'' ethnic Russian populations. In 2013, 
President Putin approved Russia's Foreign Policy Concept which provided 
for a ``comprehensive toolkit for achieving foreign policy objectives 
building on civil society potential, information, cultural and other 
methods and technologies . . .'' \3\ to protect ethnic Russians abroad. 
On March 18, 2014, this policy was the justification for Russia's 
illegal annexation of Crimea when President Putin stated ``Millions of 
Russians and Russian-speaking people live in Ukraine and will continue 
to do so. Russia will always defend their interests . . .'' \4\
    It is estimated that the Kremlin spends approximately $100 million 
annually to fund organizations such as Russkii Mir, or Russian World 
Foundation, which support the implementation of its compatriot 
policy.\5\ Russkii Mir provides funds to filmmakers, civil society 
organizations and political entities that promote the Russian language, 
Russian policies in general as well as affirm Russia's historical 
narrative of the period during and after the Second World War, 
presenting the Soviet Union as a liberator. It is important to note 
that although this policy has been in place since the mid-1990s, the 
policy has been accelerated since the advent of the ``color 
revolutions'' beginning in the 2003-2004 period, administratively 
streamlined in the Kremlin, and significantly funded. In 2005, the 
Russian Presidential administration created a specific Department for 
Inter-Regional and Cultural Relations with Foreign Countries which was 
designed to renew influence in the post-Soviet space and prevent color 
revolutions.
    In 2011, the CSIS Europe Program conducted a comprehensive 
assessment of the effectiveness of Russia's compatriot policy in 
Estonia. I ask that a copy of this report be submitted for the record. 
Although the compatriot policy is deployed differently in each country 
depending on the composition of the population and historical 
relationship with Moscow, there are common traits. In Latvia, for 
example, the Russkii Mir Foundation reports that there are 
approximately 100 Russian compatriot organizations.\6\ Increasingly, 
these compatriot organizations support political parties and individual 
politicians sympathetic to the Kremlin whose goal is to create an 
internal political forces within the country to increase Russia's 
political influence while simultaneously eroding confidence in the 
democratic state. In Latvia, these organizations promote the message 
that Riga discriminates against its 26 percent ethnic Russian 
population by suppressing use of the Russian language and citizenship 
as well as endorsing neofascist political tendencies. In 2012, these 
political forces, aided by Russian-owned media outlets, were able to 
advance a referendum to constitutionally mandate that Russian become 
the second official language in Latvia (which is currently not allowed 
by the Latvian Constitution). The referendum was unsuccessful--the 
Russian language is freely used in Latvia--yet it demonstrated that 
these well-funded groups, utilizing democratic processes (that are 
ironically unavailable in an authoritarian Russia) are very capable of 
internally pursuing the Kremlin's policy agenda, sowing societal 
divisions and delegitimizing democratic governments.
    These divisive political messages are successfully amplified and 
magnified through Russian media outlets. Russian news outlets copy 
their Western media counterparts assiduously, while inserting their own 
biased commentary into their programming. While they play popular music 
and cover human interest stories, they also report frequently on 
rampant corruption and decadence in the West, play on the fears of 
extremism and nontraditional society, and air ``news'' stories of 
fascists taking over in Ukraine and European leaders subservient to 
their U.S. masters.
    But Russian-based networks are not the only channels broadcasting 
such programming; many of Europe's ``independent'' news outlets have 
been purchased by local oligarchs who are in collusion with the 
Kremlin. Once again, looking to Latvia as an example, the three most 
popular television stations--which operate commercially--are either 
indirectly or directly controlled by the Russian Government. Bank 
Rossiya (which has already been sanctioned by the United States, with 
$572 million frozen in U.S. accounts) \7\ owns half the shares in one 
station while the other the channels are owned by a single holding 
company, Baltic Media Alliance (BMA), which has 11 subsidiaries in the 
Baltic States alone. BMA operates the most popular Russian televisions 
channel in the Baltic States and rebroadcasts popular Russian 
television shows. One channel is owned by two Russian oligarchs.\8\ Two 
other Russian television channels are registered in the United Kingdom, 
hold a U.K. broadcast license, and fall under British regulatory 
scrutiny. These television stations were used extensively to encourage 
signatures for the Russian language referendum in Latvia which prompted 
the U.K. regulator to state that the channels had violated British 
regulations.
    Other European countries, such as Bulgaria, also have a very high 
percentage of Russian-owned media outlets which are used effectively to 
counter government policies, such as anticorruption or judicial reform 
as well as policies which support the U.S. or the European Union. In 
2012, for instance, VTB Capital--the investment arm of Russia's second-
largest bank--led a consortium with Bulgaria's Corporate Commercial 
Bank (KTB) to purchase the largest telecommunications company in 
Bulgaria, BTC. VTB is 60 percent owned by the Russian Government and 
owns 9 percent of KTB (which also happened to be one of the banks 
implicated in Bulgaria's summer 2014 banking crisis). Since making 
these strategic acquisitions, Russia has been accused of using 
Bulgarian media outlets to advance its national interests. A =20 
million media campaign backed widespread antishale protests throughout 
the country, and was handled by several media companies with Russian 
connections--presumably to keep Bulgaria dependent on Russian oil and 
gas. These acquisitions have also coincided with a decline in 
Bulgaria's media independence ranking as tracked by international watch 
dogs and monitors, including the World Bank and Freedom House.
    While Russia's compatriot policy is designed for (and is most 
efficacious in) former Soviet and Warsaw Pact countries, Western 
European countries as well as the U.S. are not immune from its 
influence, particularly political party financing in Europe and its 
pervasive media. In June 2015, a new faction was created in the 
European Parliament called the ``Europe of Nations and Freedoms (ENF)'' 
party. Although newly formed, the ENF consists of 39 members from 8 
European countries and is unabashedly pro-Kremlin in its positions. As 
of August 2015, ENF members had voted 93 percent of the time in favor 
of the Kremlin's positions,\9\ and they have opposed the EU's 
Association Agreement with Ukraine, backed Russia's annexation of 
Crimea, and refused to condemn the murder of Russian opposition leader, 
Boris Nemtsov. This new grouping is led by the leader of France's far-
right Front Nationale, Marine Le Pen, who received a =9 million loan 
from the Moscow-based First Czech-Russian Bank last November.\10\
    These pro-Russian EU politicians have been bolstered by Russia's 
effective and broad-reaching media campaign which has used television, 
radio, and Internet sites as mediums to convey its messages across 
Europe. The main perpetrator of these tactics is the increasingly 
sophisticated Russian news outlet, RT (formerly Russia Today). RT 
purports to reach over 700 million people and has an annual budget 
comparable in size to the BBC's World News Service. The United 
Kingdom's media regulator, Ofcom, has recently sanctioned RT for biased 
coverage of events in Ukraine.
    Other effective channels of Russian influence are the Russian 
Orthodox Church and the use (or, more accurately, misuse) of history 
propaganda. The compatriot policy also defends and disseminates Russian 
traditional values, particularly those clash of values between a 
traditional society and secular democracy, through the voice of the 
church. Perhaps most insidious is the use of the Soviet historical 
narrative which portrays the U.S.S.R. as a liberating power during the 
Second World War and vanquisher of the Nazis; but not as an occupying 
power that the West never recognized--a frequent theme on Russian 
television. Thus, Russian television channels regularly show film 
documentaries that exhort Russia's liberation and heroic role which 
continues to reinforce this narrative among ethnic Russian populations. 
The Russian security services provide substantial funds for the 
production of such patriotic films. However, native populations in many 
European countries see the role of the Soviet Union during and after 
the Second World War quite differently and therefore view these 
recitations as a diminishment of their own history of independence.
    This is the challenge we face and let me be clear, the challenge is 
daunting. Russia's network of influence has been active for over two 
decades; it is well funded; and has largely succeeded in creating dense 
and opaque networks in many NATO countries. These intertwined networks 
work together to subvert government action, influence policy action, 
finance political parties and significantly control domestic and 
international media space. We must educate European and Americans 
citizens about the Kremlin's true objectives rather than simply hope, 
as we do today, that they will not be persuaded.
    Recognizing the challenge and educating about the nature of the 
threat is the first step; now the United States and Europe must take 
effective countermeasures.
    I do not believe financing a major U.S.-backed information 
dissemination campaign toward Russia will be effective. The Kremlin has 
efficiently closed all access to any independent journalism or media by 
implementing extraordinary measures to suppress alternative narratives 
to its prevailing views at the time. In this environment, a State 
Department fact sheet, no matter how correct, will do very little. 
However, social networks in Russia do continue to exist that can 
circumvent these measures to receive independent information through 
social media. I would urge RFE/RL to explore how to reach and expand 
these loose social networks but realistically, this will only target a 
small, urban population and not effect change in Russia.
    The United States and Europe must also significantly enhance 
measures of transparency and diversify the media outlets functioning in 
our own countries. Countries should insist on greater transparency 
requirements to identify the true ownership of media holding companies. 
If one country or its affiliated commercial enterprises acquire an 
excessively large holding in any one company, efforts should be made to 
diversify outlets. Television and radio remain the most powerful 
sources of information in some of the most vulnerable NATO countries. 
Regulatory mechanisms should be strengthened to control overly biased 
coverage, and firm penalties--such as the suspension of broadcasting 
licenses--should be considered as a deterrent.
    Most importantly, the U.S. should also initiate a major 
anticorruption/antikleptocracy initiative, in cooperation with the 
European Union, to root out malignant Russian economic influence in 
Europe. America's greatest soft power instruments are its global fight 
against corruption and ability to prevent the use or misuse of the U.S. 
financial system to further corrupt practices. This is the Kremlin's 
greatest vulnerability and the U.S. has the reach and ability to affect 
change.
    Sadly, when European governments begin to take decisions to suspend 
media outlets, the Kremlin will cry foul that ``free speech'' and 
``media freedoms'' have been trampled. If a European Government 
initiates anticorruption activities, seeks energy independence, or 
implements banking and judicial reform, media outlets and previously 
unknown NGOs actively and vociferously work against any reform efforts 
to enhance transparency. It is perhaps the greatest irony that the 
Kremlin proactively uses our democratic institutions, civil society and 
laws to undermine our democracy and erode confidence in our societies. 
In other words, we can speak exhaustively about Russia's media methods 
and influence but this is really about how we--the United States and 
Europe--can strengthen the rule of law and transparency and improve the 
health in our democracies to fight against this influence. It is our 
vigilance and our transparency that is needed the most.

----------------
End Notes

    \1\ Amb. Daniel B. Baer. ``Ongoing Violations of International Law 
and Defiance of OSCE Principles and Commitments by Russian Federation 
in Ukraine.'' U.S. Mission to the OSCE. October 15, 2015.
    \2\ Nikolai Rudensky, Russian Minorities in the Newly Independent 
States: An International Problem in the Domestic Context of Russia 
Today. National Identity and Ethnicity in Russia and the New States of 
Eurasia. M.E. Sharpe, Inc. 1994. Pp. 58-60.
    \3\ Foreign Policy Concept (2013): Kontseptsiia vneshnei politiki 
Rossiiskoi Federatsii.
    \4\ Vladimir Putin, ``Address by President of the Russian 
Federation.'' The Kremlin, Moscow. March 18, 2014.
    \5\ Sanita Jemberga, Mikk Salu, Eesti Ekspress, Sarunas 
Cerniauskas, Dovidas Pancerovas, ``The Kremlin's Millions,'' Re: 
Baltica. August 27, 2015.
    \6\ See Catalogue, Russkii mir Foundation.
    \7\ Philip Shiskin, ``U.S. Sanctions Over Ukraine Hit Two Russian 
Banks Hardest.'' Wall Street Journal. March 5, 2015.
    \8\ Springe I., Benfelde S., Miks Salu M, (2012): The Unknown 
Oligarch, Re: Baltica.
    \9\ Peter Kreko, Marie Macaulay, Csaba Molnar, Lorant Gyori. 
``Europe's New Pro-Putin Coalition: The Parties of No." Institute of 
Modern Russia. August 3, 2015.
    \10\ Suzanne Faley and Maia de la Baume, "French Far Right Gets 
Helping Hand with Russian Loan." The New York Times. December 1, 2014.

    Senator Johnson. Thank you, Ms. Conley. And without 
objection, the requested information will be entered in the 
record.
    Let me start with you, Ms. Conley. You talked about 
Compatriot Russians. And obviously, there was pretty fertile 
ground in Crimea and eastern Ukraine. Where else in eastern 
Europe would there be that fertile a ground, in terms of Russia 
having influence?
    Ms. Conley. Again, the Compatriot Policy has an extremely 
broad definition, so if you love Tolstoy, if you love great 
Russian literature and music, you are a compatriot, because we 
enjoy those cultural aspects, the language. So, it has a very 
broad definition. Clearly, where there are strong ethnic 
Russian minorities, such as in Latvia and Estonia, it has a 
particular focus on Russian language, on Russian citizenship. 
But, in Bulgaria, where networks are very strong in culture and 
society, it works in a very different way, through business, 
through the financial sector, through energy, through the 
media. And so, it is used differently, but it reaches civil 
society, NGOs, the media, and it portrays a picture that the 
West is weak and decadent, and its credibility is low, and an 
authoritarian model is a much better model of governance.
    Senator Johnson. The question I was really--and maybe 
somebody else could answer this, is--What other Russian ethnic 
populations within other countries is vulnerable? Is--any 
population who is vulnerable, as what we saw in Crimea or 
eastern Ukraine.
    Dr. Aron.
    Dr. Aron. Well, there is----
    Senator Johnson. Your----
    Dr. Aron. Thank you very much.
    As I mentioned, and as Ms. Conley mentioned, there is the 
Baltic republics--Estonia and Latvia--from a quarter to one-
third of the ethnic Russians. Now, they have some grievances 
that are legitimate. In many cases, there were or--there is 
less now, but there were facts of discrimination against them, 
based on their inability to communicate well in the language of 
the country. They were settlers, essentially, sent there after 
the Baltics were reconquered by the Soviet Union, 1944-45.
    So, the Russian--there are border areas, especially, with 
Estonia, Narva, where the Russian minorities are especially 
vulnerable to this propaganda. And, as I mentioned, the 
propaganda there is not terribly sophisticated, it is not--I 
delineated between the two. It is more like the--those last two 
dramatic examples that I used. Plus, do not forget that they 
are watching, until recently, until, for example, Estonia 
launched its Russian channel--they watch Russian TV. In other 
words, what is fed to domestic audience is also fed, not just 
to the Russian speakers in Latvia or Estonia, but also in 
Kazakhstan, where there are millions of Russian speakers, and 
all over in the post-Soviet Union.
    That creates, I think, a vulnerability, because the local 
elites, or at least until now, did not pay much attention to 
those people. There was a certain amount of ethnic prejudice. 
As Stalin was mentioned here, he made sure that ethnic 
minorities within each of the so-called Soviet republics were 
vulnerable so that only the center, only Moscow--that they 
could only look to Moscow to protect them. And, in many 
regards, that is how it is--remains, and that is what Russia is 
exploiting.
    Senator Johnson. Would you, I guess, kind of agree with me 
that the vulnerability is really related to the economic 
conditions, as well, where they have got a huge economic 
advantage of potentially joining with Russia, they are going to 
far more vulnerable to the propaganda than if they are 
economically----
    Dr. Aron. Well, yes and no. For example, the impoverished 
mining areas in Donbass and Luhansk, it is not, as they used to 
say in the Soviet times--it is not an accident that that is 
where Putin went. In addition to that being heavily ethnically 
Russian, it is also----
    Senator Johnson. So, it is a combination of the two.
    Dr. Aron. Yes, those areas were in total decline, as mining 
areas are in most of the world. So, he definitely found very 
fertile soil there.
    I was in Estonia earlier this year, and the Estonians feel 
pretty good that their miners, who make about 10 times more 
than their Russian counterparts, are harder to sway than the 
Ukrainian--or Russian Ukrainian miners. Still, though, as I 
said, it is not always economic. It is also the voice of the 
motherland, it is hidden or not so hidden discrimination 
against Russian minorities, or at least the memory of this 
discrimination. So, it works a long all kinds of factors.
    Senator Johnson. You had mentioned these two examples of 
pretty extreme propaganda, and you said they are proved--the 
stories were proved false, fake. Who proved them fake? And how 
was that accomplished?
    Dr. Aron. It was proven by--and as somebody mentioned, 
here--I think, Peter--civil society is a huge resource. This 
group that I mentioned, StopFake, in Ukraine, in Kiev, is one 
of quite a few that go after the Russian propaganda, and they 
actually--these people actually go--and the Ukranian 
journalists--they go on the ground, and they interview people. 
And the--just to mention that story about the--ostensibly, you 
know, a child--a child and a wife of a pro-Russian separatist 
being so horribly murdered. They actually interviewed her 
parents, and they said, ``Well, you know, the husband joined 
pro-Russian separatists, left her without money, and she did it 
because the Russian television paid her.'' So, it is possible 
to unravel it, but it requires an effort. And that effort has 
to be encouraged through civil society. USAID, BBG cannot do 
it. It has to come from the civil society.
    Senator Johnson. Mr. Pomerantsev, we hear reports that 
Vladimir Putin has very high public opinion approval ratings in 
Russia. In your testimony, you talked about that really the 
attitude in Russia is very cynical--high level of cynicism. Can 
you kind of square those two differences of opinion, I guess?
    Mr. Pomerantsev. Well, the--well, I mean, cynicism in the--
look, opinion polling in authoritarian regimes is a very 
complex thing. You know----
    Senator Johnson. So, you do not buy it.
    Mr. Pomerantsev. I think we have to look at the environment 
in which it happens. There are no alternatives, so, you know, 
Putin is the only one left standing. So, who do you like? Do 
you like Putin?
    No--look, just--cynicism, when you do not believe the facts 
around you--I mean, ``Do you think Putin is corrupt?'' People, 
like, ``Yeah.'' ``Do you think your government is doing well?'' 
``Yeah. But, every government is bad.'' But, still there is an 
emotional, you know, high that comes from victory. Eight-four 
percent is pretty common for any military leader.
    But, listen, there was a great little bit of--a great 
little bit of research the University of California did about 
China, about people watching the main news. And in a very, very 
subtle way, they did sociology, not telling people what they 
are actually asking. And most people, after they watched the 
news, did not think the government was good. They thought it 
was strong. A lot of propaganda is a signal. This is the rules 
of the game. This is the stuff you have got to say. Nod. Say 
this, and you can keep your little corrupt business, et cetera, 
et cetera, et cetera.
    When you do more deep sociology in a lot of these bits of 
the world, it is a really mixed picture that you get. So, for 
example, are there Russian soldiers in Ukraine? A lot of 
Russians say, ``Do you mean officially?'' That was in 
sociological reviews. So, you have to go a little bit deeper.
    But, without a doubt, I mean, there has been an emotional, 
you know--you know, catharsis from the Crimean experience. The 
question is, How deep does that go? Is that like a football 
match? ``Yay, we got Crimea, now where is our food?'' Or is 
that actually something deeper, and will it take us somewhere 
very, very dark? The parallels in the 20th century are obvious. 
So, I think that is what we are all asking ourselves. Is this a 
momentary high or is this something more long term and much 
more frightening?
    Senator Johnson. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you.
    Thank you all very much for being here.
    Mr. Pomerantsev and Mr. Czuperski, it is my understanding 
that about 60 percent of Russians have access to the Internet, 
and that the Internet is relatively unfiltered compared to some 
other dictatorships. So, why do more Russians not see 
differences between what they see on the Internet and what they 
see on State-controlled media?
    Mr. Pomerantsev. It is actually interesting, when you look 
at the Internet. Internet gives us--it does give us some 
glimmers of hope. So, the Kremlin, since 2012, since the 
protests against Putin, invested very heavily into the 
incident, creating these mixtures of entertainment and 
disinformation, Internet projects, like Life News, which is 
like a mixture of tabloid, celebrity, fascists in Ukraine. They 
do quite well, but they actually get the same number of hits 
as, sort of, Alexei Navalny's anticorruption blog. So, it is a 
much more equal thing, and it shows that there are Russians who 
want, you know, evidence-based, fact-based news.
    But, listen, it is--nowadays--today's dictators, they do 
not really work through censorship, they work through putting 
so much disinformation out there, people cannot tell, you know, 
the good from the bad, disinformation from real information. A 
lot of, sort of, authoritarian regimes work this way. You just 
confuse everyone, and, in that confusion, people cannot tell 
what they want, so they just go with--you know, they go with 
the flow.
    So, authoritarian regimes across the world have worked out 
how to use the fact that there are so many different sources of 
information, for themselves.
    Senator Shaheen. Mr. Czuperski.
    Mr. Czuperski. One of the really interesting things that 
happened leading up to the occupation of Crimea was that, way 
before President Putin's strike in Crimea and his ``little 
green men'' started appearing, is that, in fact, the biggest 
social network, the Facebook equivalent, VKontakte, in Russia, 
with over 60 million daily users, was overtaken forcefully from 
Mr. Pavel Durov, and overtaken by Kremlin associated oligarchs 
and businessmen. And that shows you just to what degree, while 
they might not be censoring entirely the Internet, as Peter 
pointed out, there is an attempt to try to control what is 
being released, at what time, and when, and get a deeper 
understanding of those new networks to understand how to mold 
public opinion even deeper. So, there is an effort there.
    Senator Shaheen. Ms. Conley, in your testimony, you say 
that you do not believe that financing a major U.S.-backed 
information dissemination campaign would be effective in 
Russia, but you do talk about the opportunity to explore how to 
reach and expand loose social networks, which I assume access 
to the Internet would be an important part of that. So, can you 
talk a little bit about how you see that happening, compared to 
what you have just heard from the other two witnesses?
    Ms. Conley. Absolutely. In conversations we have had with 
colleagues that are working in the Moscow Bureau of RFE/RL, 
that, in some ways, there is an attempt to control the 
Internet. Again, Internet usage in Russia is very much highly 
urbanized. Less, obviously, rural populations, television and 
radio is a much greater source of their information, which is 
very much Kremlin-controlled, but that there are still vibrant 
networks, using Facebook and elsewhere, and they do crave fact-
based information, they do want the truth. To be able to use 
those networks effectively--but, again, it almost has to grow 
organically. There is extraordinary distrust from top-down 
information. But, if we can expand those networks--but, make no 
mistake, the Duma, in passing regulations and rules, is trying 
to stop those avenues. There is extraordinary use of 
cyberactivities to track them, to follow them. We certainly saw 
that in Ukraine.
    So, to allow and support creative uses of these networks, 
to let that information in, I just think a government, top-down 
approach is not going to be effective, that we have to be, 
exactly, innovative, creative, using these networks, and that 
they can help spread the story, rather than have it come in, as 
we did it traditionally during the cold war, with large and 
heavy funding. That is just not going to be how we are going to 
fight this battle in the 21st century.
    Senator Shaheen. I mentioned to the earlier panel that we 
have been doing these series of hearings in the Armed Services 
Committee about military reform and what the world--the 21st 
century looks like for combat and war. And one of the points 
that was made at one of those panels today was that, as we are 
looking at how to combat this kind of propaganda, it is very 
much what you have just said, that the way to do that is 
through network--organic networking that individuals are doing 
in theater, wherever that may be. So, talk, if you can, a 
little bit about how to promote those kinds of independent, 
organic efforts that would spread and help with information-
sharing and correcting the story that is being put out by 
state-owned media.
    And, I do not know, Ms. Conley, if anybody else wants to 
respond to that. Maybe you could begin.
    Ms. Conley. I am happy to start. Again, I think the 
challenge is--because so much has been shut down within Russia 
itself--is perhaps using Russians that have left Russia, but 
still retain their contacts, their networks, trying to work 
through them. Again, not to create, again, fulfill the myth of 
the foreign agents and that contamination of the West, but to 
allow them to use those--their existing networks to help pull 
the truth towards them. I think it is using a lot of young 
people. Again, it is sort of the reverse troll factories, 
right? We want to use young people and their friend network to 
try to spread the truth. But, I think we should look to our 
allies that have ethnic Russian populations within their 
countries, and try to see where we can reverse engineer and 
work through those networks to provide the truth rather than 
the alternative universe that they are presenting.
    I will let my other colleagues speak to it, as well.
    Senator Shaheen. Anyone else want to speak to that?
    Dr. Aron. I wonder if I could----
    Senator Shaheen. Dr. Aron.
    Dr. Aron [continuing]. Illustrate something in----
    Senator Shaheen. Sure.
    Dr. Aron [continuing]. Illustrate something that Peter said 
in response to your question. I think he is absolutely right, 
the--it is--so far--so far, it is not the Iranian or the 
Chinese method of actually censoring sites, but overwhelming 
them with trolls.
    And let me give you an example from my own research. I have 
been very interested in the Russian--ethnic Russian and also 
Russian-language fighters in ISIS. As you know, Russian is the 
third-largest language there now, after Arabic and English. And 
I was doing research on the Internet, and I was directed to the 
Russian equivalent of Facebook, which was mentioned here, of 
Vkontakte--an enormous site--by one of the links. And, indeed, 
I saw my article that--the article I was looking for. But, 
before I saw the article, on the top-right of that page, I saw 
a cartoon. It was Uncle Sam with a baby on his lap, clad in a 
jihadist uniform, with a Kalashnikov AK-47 behind him, so you 
make no mistakes. And the caption says, ``ISIS is a product of 
America's two-party system.''
    So, this is clearly--every major system now, every major 
site--social site, unless they are, as you call them, dissident 
sites, say, you know--who are hanging by a thread. But, if you 
are an important site, and if you want to make money, and if 
you want to host, I think it is your obligation to display 
these types of messages. And then people come to the Internet, 
they do not know what to believe. And they are constantly being 
proffered these types of messages.
    Senator Shaheen. Yes, Mr. Czuperski.
    Mr. Czuperski. One of the things that Peter was mentioning 
is trust, and building trust. And the methods that we use to 
now report digital forensic research methods that let us verify 
whether a digital breadcrumb is accurate or inaccurate, I think 
really speaks to that. And the more we can spread these 
techniques to the public and journalists, I think, the more 
impressive we can see results, where we can start growing this 
trust again in communities that are skeptical toward us.
    The most impressive mark of our report was not so much that 
we created it and it showed us what was happening in Ukraine, 
but, in fact, that we created the tools for the public to just 
go out there and verify the facts themselves. And that is what 
Simon Ostrovsky in writing the story. I am going to show you a 
picture where he is actually standing in the very spot where 
that picture--where the picture was taken a few months earlier. 
And I think that that really highlights that, if we empower a 
journalist with these new techniques to navigate the digital 
space, we can really show what is happening, and they will need 
to do that, trickle down, but let it trickle up.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Johnson. We have 10 minutes left on a vote. Do you 
want--would you like to keep it going? I will quick go and come 
back. Is that okay?
    Senator Murphy. Yes, let me try to fit some questions in 
now.
    Senator Johnson. Do you want to do that? And I will go 
vote, and then I will come back.
    Senator Murphy. That is fine.
    Senator Johnson. Okay. So, you keep it going until then. If 
you have got to leave, then put it in recess, and I will be 
back. That make sense?
    Senator Murphy. Sure.
    Senator Johnson. Okay.
    Senator Murphy [presiding]. Thank you all. And I apologize 
for not being here for your testimony.
    But, I caught, Mr. Pomerantsev, of your sort of rendering 
of the underlying message of the Russian propaganda campaign 
essentially being one of nihilism, that there is nothing 
worthwhile believing in, that, you know, you should not believe 
their narrative, but you really maybe even should not be our 
narrative that there is really no truth. And so, if that is the 
case, if that is sort of the underlying message, then I wonder, 
as we are trying to decide between these two competing 
strategies of either seeding a bunch of local narratives versus 
trying to tell one narrative directed from the outside as to 
whether we are just effectively feeding into their methodology 
by putting resources into a variety of different local accounts 
who are all going to have, you know, some distinct, separate 
agenda behind them, or whether we are better off attempting to 
husband our resources together and try to tell one narrative to 
try to sell a simple truth, like ``Russia invaded Ukraine,'' 
like ``Russia took down the plane''--right?--instead of 
investing in all of these disparate story lines, given the fact 
that their whole strategy is about trying to create lots and 
lots of disparate story lines.
    So, I hear a lot of you, sort of, making this 
recommendation, that maybe it is not worthwhile to do one big 
project, that it is worthwhile to invest in a lot of other 
projects. But, tell me if I am wrong, that sounds like it might 
actually just sort of feed into their entire strategy, which is 
not to tell one narrative, is to just try to spread out the 
narratives as widely as possible.
    Mr. Pomerantsev. You have actually asked the key question 
that I am wrestling with in my think-tank work. How do we get 
the balance between talking to every audience in their own 
language and to what concerns them? Right now, if you come to 
someone in Natava and try to tell him the truth about MH17, 
forget about it. It is too late. They are already too confused, 
too cynical, and too kind of, ``Probably the--some masons did 
it.'' You know, they are too far gone in the conspiracy world. 
If you go and talk to him about his roads, he will listen to 
you. So, a lot of the time, it is about changing the 
conversation and talking to people about what is important to 
them.
    However, the secret of us--for us to--as we move forward, 
is to link that to a larger strategic narrative. And the 
strategic narrative is actually there to be seized. It is about 
trust, dignity, all these things that, you know, 1989-1991 were 
all about. But, we are going to--the skill in the 21st century 
is going to--to do both. And we are all just figuring out how 
to do that.
    ISIS did the same thing, by the way. ISIS change their 
narrative for whoever they are talking to. They do violent 
jihadism to get Westerners to come. In the local world, where 
nobody likes violent jihadis, they do truth and prosperity. 
They change their story everywhere.
    So, everybody has--and a lot of this has got to do with the 
nature of media nowadays. It is very fractured. People live in 
their little ecosystems. So, you cannot just stand there and 
scream, ``The Russians did MH17,'' when it is too late. You 
know, all the research about debunking shows it does not 
actually work. You know, nobody listens. Everybody is in their 
little world. So, you have to learn how to talk to people and 
bring them out of it.
    There is one more factor, though. And we have all been 
talking about, you know, how popular Putin is. And this is 
something that we have to look at, as well. And here, 
governments can really help, because it is quite expensive. We 
have to understand the difference between perception and 
behavior. So, people in Narva, in east Estonia, will tell you 
how much they love Russia, how they are offended at being in 
Estonia. And you are, like, ``Where do you want your kids to go 
to school?'' They are, like, ``London, obviously.'' This 
happens everywhere. We have to do a very different type of 
sociology, a real targeted audience analysis that really looks 
at what motivates people, and speak to that. And you will find 
that, half the time, they are good Westerners. You missed the 
start of my speech. I talked about the Instagrams and, sort of, 
Facebooks, or these very tragic victims of this terrible plane 
crash, the Russian plane that exploded over Egypt. You look at 
their lives, you realize, ``My God, they are no different to 
kids in Wichita.'' You know? So, we have to learn how to speak 
to the behavior, and suddenly we will find people's behavior is 
much closer to our ideals than the nihilism that Putin talks 
about.
    Senator Murphy. Other----
    Mr. Pomerantsev. That was a long answer, sorry.
    Senator Murphy. Yes. No, that is fine.
    Other thoughts on this? I know, Ms. Conley, I heard you 
make a very specific recommendation about really not trying to 
do one big, consolidated project. But, how do you make sure 
that a more diffuse effort does--just does not add to the 
static?
    Ms. Conley. Well, I actually argue that the diffusive 
nature in the networks is actually an antidote to a very 
networked approach that Russian influence is showing using all 
tools at its disposal--culture, the church, every vehicle that 
they use. And we have to start thinking in a very much network-
decentralized approach, where we are tapping into this. We are 
being much more proactive.
    And, Senator Murphy, as you were talking, I almost 
encounter this same argument with sanctions. You know, ``If we 
do this, we feed into Putin's narrative of encirclement, `We 
are at war with the West.' '' But, we must take actions. He is 
going to develop a counternarrative to whatever the West does 
in response to his behavior. And I think that is a challenge we 
just have to accept and meet. But, if we can be, in some ways, 
many wares on many levels, from civil society to the government 
to cultural use--the United States, in many ways, left the 
playing field after NATO and European Union expansion in 2004, 
and we have to return to the playing field, being engaged with 
civil society, being engaged with the media, not just doing 
technical assistance, but being present and being very 
proactive and countering a narrative. When that is the only 
narrative you have, that is what you buy.
    And just to comment on Peter's question. In this survey 
that we did on Estonian behavior, you ask an ethnic Russian in 
Narva, they--yes, they listen to Russian news, but they are 
glad that they are in Estonia, for the benefits of Estonia. And 
I think we have to not overplay this, but also understand that 
they are, 24/7, being bombarded by lots of disinformation--how 
the West uses every tool of--it is a soft power, it is 
attractiveness, but at all levels. And we just have not been 
that innovative, and we have not been that omnipresent as the 
Russian Russkiy Mir, the Compatriot Policy, has been 
omnipresent in these societies.
    Senator Murphy. So, let me ask a question about the means 
of gaining omnipresence. So, we spend most of our time here 
talking about strategy, and we do not actually spend a lot of 
our time in this committee--and I can be preachy now that I am 
the only person here----
    [Laughter.]
    Senator Murphy [continuing]. We do not actually spend a lot 
of time talking about resources. And, you know, the fact is, is 
that this guy has just a lot more resources than we are willing 
to devote to this project. And I think, as you correctly 
identified, this is not just about support for the Broadcasting 
Board of Governors; this is about building up civil society, 
because the propaganda does not come from television stations, 
it comes locally from churches and business groups and 
nonprofits and all sorts of organizations and individuals that 
are seeded with money and resources. And we spent the 1950s 
building up rule of law, building up stable democracies at a 
time when we were spending 3 percent of GDP on foreign aid. 
Today we are spending 0.1 percent of GDP on foreign aid.
    And so, I will put the question back to you. I am happy to 
have others comment. I want to have a conversation about 
strategy, but, if we are going to try to do what Mr. 
Pomerantsev said, which is to have a subtlety of strategy that 
both seeds locally-based narratives while also trying to tell a 
consistent story line, that is just not a question of the right 
strategy, that is a question of resources. And we do not have 
it right now. That has got to be a challenge to this Congress, 
as well, I would assume.
    Ms. Conley. Thank you, Senator.
    I would--first, step one is focus. Mr. Putin has a singular 
focus. We lack that focus. So, that is step one. And a strategy 
of reaching and making Europe important to us, making it 
important to be there.
    As far as the resources, again, when we were working so 
closely with the Baltic states and central Europe as they were 
looking to their aspirations to join the European Union and 
NATO, we were everywhere. We were engaged. The Seed Act. We 
were working in civil society, technical assistance. Now, 
everyone who has been through that period--and it was a very 
successful period of deep engagement, a great deal of 
assistance. We had technical advisors. We were everywhere at--
with our European colleagues.
    Now it is a success. They have entered these institutions. 
But, our mistake was, we said our job was done. And we have to 
understand that all democracies are works in progress. And what 
we did not realize is that these institutions in central Europe 
and the Baltics are still young, and democracies can backslide. 
Hungary is backsliding. Bulgaria is backsliding. These are NATO 
allies that we have article 5 treaty obligations for. We have 
to reinvest in them, in their institutions and their societies. 
We cannot want it more than they do, but we have to return--and 
that is very hard to tell the American taxpayer that here is a 
country--European countries that are doing well, that have 
joined the euro and that we have to reinvest. But, that is 
about how we build the antibodies to growing Russian influence, 
because, if we are not there, Russia will step in.
    So, it is a comprehensive new strategy, a reinvestment plan 
into Europe. And I think that would take a lot of focus and 
attention that I have not seen to date.
    Senator Murphy. Yes. And again, it is focus and attention. 
I do not disagree. But, it is also a question of whether we are 
willing to come up with the resources to do it.
    Because we have just a few minutes left on this vote, I am 
going to pretend like I am back in charge of the subcommittee, 
and I am going to--I am going to recess it so that Senator 
Johnson can come back and wrap up. So----
    [Laughter.]
    Senator Murphy. Oh, well done. It is all yours.
    Senator Johnson [presiding]. I walked fast.
    Thank you, Senator Murphy.
    But, I have got to get my bearings, here.
    Mr. Czuperski, one of other questions I wanted to ask you, 
you--again, there is very compelling evidence--I saw those 
photos of, you know, the digital footprint. How does Russia 
suppress that kind of information internally?
    Mr. Czuperski. I think the beauty of this is that it is 
partially hard to suppress. If you are my superior in the 
military, and I am an 18-year-old lad that just joined the 
forces, I am doing the most exciting thing in my life, and you 
are going to ask me to give you my phone. I will give you my 
throwaway phone, but I am probably going to keep my flashy 
smartphone, and then I am going to go off into war and start 
tweeting everything that is happening, because it is so 
exciting. And so, I think it is hard to suppress this basic 
human desire of sharing, especially people that are of that 
generation.
    The second interesting point is that at times we have 
actually seen--some of the camps that we have seen along the 
Russian-Ukraine border, we have seen that soldiers actually 
have not been posting and leaving digital breadcrumbs from 
those specific camps, but the irony was that a lot of these 
guys have girlfriends that visit them and then post pictures on 
their behalf later on, once they leave the camps.
    So, in a way, I think it is a--it is the beauty of the 
decentralized Internet. You can only suppress so much, but it 
is going to keep on breathing and flourishing, one way or the 
other.
    Senator Johnson. So, it is hard to totally control society.
    We have heard reports that Russia, the government, was 
threatening families who might have lost a loved one in--
particularly in Moscow, but, ``Do not say anything to anybody 
or you will not get the pensions.'' I mean, are those reports 
largely true, or are there other forms of threats or 
intimidation that Vladimir Putin is engaged in to try and 
suppress this information?
    Mr. Czuperski. I am not sure which reports specifically you 
are referring to, but we are aware that the cargo 200s, dead 
bodies that have been shipped back from Ukraine, back to 
Russia, times have been put to rest, the people that died, 
under very strict and muted circumstances, where the families 
were invited, but not the unit members, and so forth. So, there 
is definitely a concrete effort within the Russian Government 
to mute any noise of Russian casualties in Ukraine.
    And one of the perhaps most interesting development in this 
recent year was a new law put in place by Mr. Putin that 
prohibited Russian citizens from speaking about deaths in times 
of war.
    Senator Johnson. Okay. So, it was actually the law in 
place.
    Dr. Aron, you were speaking about the growing effectiveness 
of Voice of America. And the comment you made was that it was 
superior to just normal public media outlets. Can you just 
explain what you are talking about there?
    Dr. Aron. Well, it is--I have found--thanks--I have found 
that--on my trip to Ukraine, I was struck repeatedly by both 
media and political elites there telling us how much they 
appreciate the content of both Voice of America and Radio Free 
Europe, Radio Liberty. And there are--how some of the top 
Ukrainian television networks were actually vying for the 
content and trying to get the rights to several flagship 
programs of--television programs by VOA and Radio Free Europe, 
Radio Liberty.
    You know, let me give you another example. A top democratic 
leader of Russia, opposition leader, Vladimir Milov, was 
visiting here last week, was in my office, and he said, 
``Without a doubt, of all the unofficial sources of political 
information and analysis, Radio Free Europe, Radio Liberty, 
based in Moscow, is by far the most popular and by far the most 
credible.''
    What I have found is the cache of credibility which is 
extremely highly praised in--I also was in Moldova. And I am 
sure it is probably the case in other post-Soviet nations. That 
is utterly precious. That is--you know, I knew that, in theory, 
but it was very gratifying to see it face-to-face. And this is 
something that we need to maintain and support.
    Senator Johnson. Is it the strength of the brand name? Is 
it the quality of the content? Is it production values? I mean, 
that is what--I am trying to get a sense--you know, because 
what we do not want to do, then, if it is the brand, we do not 
want to change the brand name just to modernize things, if--so 
that----
    Dr. Aron. Well----
    Senator Johnson. If you understand the thrust----
    Dr. Aron. Well--well--well----
    Senator Johnson [continuing]. Of my question.
    Dr. Aron. Well, brand is definitely there, because this was 
the most popular two stations during--and plus the BBC and 
probably Deutsche Welle--during the cold war. But, that is for 
the older generation, while--I was talking to younger people, 
as well, and they believe that--I think it is all those things 
that you mentioned. It is the credibility, it is the 
authenticity of journalistic research. It is the fact that they 
live by the democratic media rules, that they will not--and 
partly also because they are not a government organization.
    Senator Johnson. You mentioned the BBC. Can you kind of 
compare the quality, the depth, the extent of BBC verse the 
Voice of America?
    Dr. Aron. Maybe Peter would be better off, being a British 
denizen.
    Mr. Pomerantsev. Well, the--well, there is hardly anything. 
The BBC closed its Ukrainian service, and it masterfully scaled 
down its Russian one. It is now going through a review, where 
there is talk--I know--you need someone from the BBC to answer 
this, but I know there was a--they applied for funding to 
create a BBC Russian language via a 24-hour channel, but 
probably will not be that. It might be, like, an online thing. 
So, I think the Brits have realized that, as Heather has 
stressed repeatedly, that they thought everything was fine in 
the Russian-speaking world, and, oh, my word, were they wrong. 
But, you know, you are the last guy standing, basically. The 
Russian--the BBC Russian operation is tiny compared to what it 
was.
    Senator Johnson. In my opening comments, I was talking 
about my basic sense that, obviously, Radio Free Europe, Voice 
of America, these things were very strong in the cold war, and 
we kind of almost mothballed the things. I realize it is 
difficult to answer it this way, but I am an accountant, I like 
numbers. On a scale of 1 to 10, let us say 10 is the most 
effective, let us say that is our countermeasures that we were 
employing the cold war. How low did it go, and where are at 
right now? And I would kind of like all of you to potentially 
answer that.
    And, Ms. Conley, we will start with you because you were 
shaking your head.
    Ms. Conley. Sorry. You know, I think presently our 
effectiveness on a scale of 1 to 10, 10 being the most 
effective, 1 being the least--I think we are at a 3 or 4. I 
think we are now finally awakening to the magnitude of the 
challenge, while RT, Sputnik, the purchases of European media 
markets by Russian oligarchs, we--and all the touch points that 
Russia's policy of influence reaches--we realize we have an 
enormous task, the resources are low. I do not think it is an 
information campaign only. It is a major part of the battle. 
And shaping public opinion is critical.
    But, I just want to underscore to you, Mr. Chairman, that 
it is bigger than that. It reaches and touches these citizens 
in business, culture, economics. It really requires an enormous 
Western, American presence, of which we have not seen and since 
these countries had, you know, just achieved independence. We 
have to return to that.
    So, I think it is a holistic approach of which the 
communications is one, but it is more comprehensive than that.
    Senator Johnson. So, is RT at 10 right now?
    Ms. Conley. I do not give them--I do not over-give them, 
but I would say they are a 7 to 8.
    Senator Johnson. Pretty darn good. How low did we go, if we 
are at 3 now?
    Ms. Conley. Well, as I said, I want to be optimistic that 
we were at a 2 and a 3, because we understand we need to grow 
and grow and put resources and focus. But, I think we have a 
long way to climb before we can be as omnipresent as Russian 
influence is today.
    Senator Johnson. Anybody else----
    Dr. Aron. Sure.
    Senator Johnson. Anybody want to----
    Dr. Aron. Yes. I wonder--and, you know, displaying my 
biases of being a governor of BBG--it depends. It depends on 
the country, it depends on the audience. We cannot say that--as 
you remember, RT is hardly this, you know, all-powerful, 
seductive monster. It is--you know, the credible polling that 
was done in western Europe, I have the numbers; I did not want 
to bother you with this, but I certainly will provide them.
    Dr. Aron. They barely registered. I mean, they are--they 
barely registered as the--in the first 100th of the most 
watched television stations.
    Senator Johnson. But, their target--their target really is 
not western Europe. It really is----
    Dr. Aron. Precisely. They do not--exactly. So, we are 
mixing things up here a bit. In western Europe, and even in, I 
would say, central and--say, Poland, or the non-Russian-
speaking Estonians, Latvians, and Lithuanians. Very negligible. 
Russia is not--our Russia--Russia today is not all-powerful at 
all. In the U.S. market, it is very, very low. Very low. I 
mean, in----
    Senator Johnson. But, I guess, really I am talking about 
the effectiveness toward the targeted market.
    Dr. Aron. Exactly.
    Senator Johnson. And----
    Dr. Aron. Well----
    Senator Johnson. You know, and let us face it, the targets 
are changing, which is one----
    Dr. Aron. It--well----
    Senator Johnson [continuing]. Of the questions I had.
    Dr. Aron. They distinguish between targets. And I think the 
main target is--you know, RT is a glamour project. RT--you 
know, as I have written, Putin went to tour their offices, and 
he said, ``This was a project to counter the Anglo-Saxon 
domination''--I swear to you--``Anglo-Saxon domination of 
airway.'' CNN. Right? But, where the weaponization of 
information occurs, where it is--actually blends with Putin's 
tactical needs, it is Russian TV, itself, the ability to 
control its content, and the ability to project it on the 
Russian speakers in the former Soviet Union.
    So, in--as I said, in Ukraine, I think VOA and Radio 
Liberty or Radio Free Europe are doing fairly well. I would say 
it is probably better than 3 or 4, probably a 5 and 6. But, we 
are developing. We are a bit behind in a social media, but we 
create that, and we work on this.
    So--but, the point is--and here I agree with Heather--the 
point is, is that it is a complex issue. The goal of the 
Russian--propaganda is just one part of it--the goal is to 
overwhelm Western societies with the cynicism, to show them 
that, ``While we are bad, but nobody is good,'' and, as I said 
in my presentation, to undermine the people's belief and trust 
in democratic institutions. It is as simple, but also as grand, 
as that.
    Senator Johnson. Anybody else want to weigh in?
    Mr. Pomerantsev. Yes, I would really like to add to this 
course. We are playing different games. What Russia--and China 
has got exactly the same idea in its three warfares, a lot of 
other groups that are seeing--you know, they are looking at the 
world, ``How can we upset the world order as it is now? How can 
we upset the global commons?'' And they have worked out that, 
if they unify all these things that we always thought were the 
strength of democracy--open markets, open media, 
multiculturalism--they can progress and achieve tactical ends. 
Their power is not: Russian TV over here, Russian TV over here, 
Gazprom over here. Their power is that, at a key moment, they 
can unite it all. We cannot do that. But, we have to start 
thinking about how we are going to manage these new challenges 
without sacrificing our democratic values.
    So, we are playing a different game. They are--it is not 
about RT versus BBC. It is about a new vision of how you manage 
your global role versus, you know, a vacuum on our side.
    Senator Johnson. Are you basically describing the fact that 
we are trying to defend the entire chessboard, and Russia is 
going to bring--consolidate those powers on a particular 
target, on a particular piece?
    Mr. Pomerantsev. And--but, with one grand----
    Senator Johnson. At a particular point in time.
    Mr. Pomerantsev [continuing]. One grand strategic aim. The 
aim is never Crimea or Syria. Their aim is you. Yes? They are 
after you. They want to psychologically prove that America is 
impotent; therefore, the Pax Americana, for what it still is, 
is pointless; and therefore, why do we not be more corrupt, 
more violent, et cetera, et cetera, et cetera? That is the 
ultimate aim. It is a--Syria is a psychological operation, a--
rather than a ground operation, in that sense.
    Senator Johnson. Mr. Czuperski.
    Mr. Czuperski. You can actually see how they are 
consolidating what Peter was describing, when you look online 
into the digital space regarding Syria. Today, you had posts 
from Sputnik in Russia that they are claiming that more than 
2,000 ISIS targets have been hit by Russia, which is absolutely 
nonsense. But, they do it effectively, because they consolidate 
all those outlets at the same time and leave a big footprint 
online that claims Russia versus ISIL, and here is the 
accomplishments that we make.
    And so, perhaps representing the digital generation on this 
panel, the space that we are most incompetent in is the space 
that we have created, and that is online. We tweet, but we 
tweet to send long press releases to someone that, quite 
frankly, no one really cares about, and we send out YouTube 
videos that put us to sleep. Whereas, Russia today--today, in 
fact, is able to claim to have more than 2 billion viewers as 
the largest network--Russian news network--online. And so, they 
are just transforming completely the way that you communicate 
online, while we still use 20th century methods to communicate 
in the 21st century platform, and that is online. So, we have 
to transform the way we communicate in that space; otherwise, 
we are going to lose the battle.
    Senator Johnson. I will give you each a chance to kind of 
make a closing comment. But, one of the things I just--you 
know, in your closing comments, if you could just kind of 
address--it sounds like we are making progress. How much more 
progress do we need to make? I mean, are we on a pretty good 
path, or do we need to, here, Congress of the United States, 
allocate more resources, devote more time to push this to the 
next level?
    We will start with you, Dr. Aron.
    Dr. Aron. Well, if you do not mind, I just--I will just say 
what I said before, that the most effective antidote, the most 
effective medicine is a rich, diverse, and uncensored 
democratic media environment. Now, I think if we talk about 
strategy, and not from--you know, rushing from putting one fire 
after another--the idea is to try and build this type of 
environment in--where--in places that are most vulnerable to 
the Russian propaganda. Now, again, it immediately gets to what 
Heather was talking about. You cannot build a democratic, 
vibrant media in a society that only half free or half 
authoritarian. So, immediately, you hit certain institutional 
walls. But, I think the direction should be that.
    Senator Johnson. Thank you, Dr. Aron.
    And actually, Dr. Aron mentioned a word I was going to ask 
you, Mr. Pomerantsev, because you said we need a strategy. Can 
you kind of describe what your concept of that strategy would 
be in your closing comments?
    Mr. Pomerantsev. Sure. It starts from recognition that in 
the 21st century, misinformation is a huge problem, that it is 
a threat to democracy and a rules-based global order. We will 
need institutions as wide-ranging as the ones we created in the 
20th century, a completely different--a supercharged public 
diplomacy, reinvigorated. New NGOs. We will need NGOs that--for 
disinformation; in other words, as big as Amnesty International 
was for human rights. We will need centers of research focusing 
on the way damaging digital means spread. That is possible to 
do, but you--you know, Google can do it commercially, but we 
are not putting any resources, that I know of, into doing it in 
the foreign policy field.
    So, we are actually talking about a completely new set of 
institutions and practices. We can get into--there is action 
being taken on micro things, little things, like--little bit 
more for anticorruption, little bit more for investigative 
journalism. But, I have not heard of a vision anywhere yet.
    So, weirdly, we are way behind. We invented it, as both 
Maks and, I think, Leon have said, but we are kind of way 
behind in really understanding the consequences.
    Senator Johnson. So, we have a ways to go.
    Mr. Czuperski.
    Mr. Czuperski. So, I think--sorry, thanks--perhaps the most 
important thing to do as we navigate this new Engagement Age is 
to equip the public with methods to create something called 
information defense, as laid out by our friend Ben Nimmo, where 
we proactively are able to have a set of skills in place ready 
to debunk facts as they occur. So, the next time a plane downs, 
we are not falling trap to Russia claiming a certain thing. And 
the best way to do that is, as Peter said, putting the funding 
to NGOs, putting the funding to civil society and journalists 
so they, themselves, can create the tool and develop them 
further. And especially in the digital space. If we do not 
seize the digital space that we created, then we--it is going 
to turn back onto us.
    Senator Johnson. Thank you.
    Ms. Conley.
    Ms. Conley. Well, Mr. Chairman, thank you for holding these 
types of hearings. This is how we have to attack the problem 
and build awareness. We do need a long-term strategy. It is 
going to require a reinvestment of the United States in all of 
these countries, with new resources at all levels of society. 
This is ideological. We like to say this is not the cold war, 
but it is liberal versus illiberal, cynicism versus optimism, 
open societies versus authoritarian. This is our great 
challenge. We rose to the occasion during the cold war. We are 
going to have to rise to the occasion again using a 21st 
century toolkit.
    But, make no mistake, this is a confrontation of great 
magnitude. And when the West diminishes its presence, Russia 
will step in and fill that vacuum, whether that is in Syria, 
whether that is in Ukraine. And so, that is our great 
challenge.
    And I thank you for holding this hearing and continuing to 
raise awareness and focus on this issue.
    Senator Johnson. Well, thank you.
    I want to, again, thank all the witnesses for taking the 
time, and your thoughtful testimony and your thoughtful answers 
to our questions.
    The hearing record will remain open until November 6 at 5 
p.m. for the submission of statements and questions for the 
record.
    This hearing is adjourned.
    [Whereupon, at 4:33 p.m., the hearing was adjourned.]

                                  [all]
</pre></body></html>
